<html>
<title> - ROUNDTABLE: HIGHER EDUCATION AND CORPORATE LEADERS: WORKING TOGETHER TO STRENGTHEN AMERICA'S WORKFORCE</title>
<body><pre>[Senate Hearing 109-134]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-134
 
ROUNDTABLE: HIGHER EDUCATION AND CORPORATE LEADERS: WORKING TOGETHER TO 
                     STRENGTHEN AMERICA'S WORKFORCE

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING ISSUES RELATING TO HIGHER EDUCATION AND CORPORATE LEADERS, 
  FOCUSING ON DEFINING THE ROLES INDUSTRY AND INSTITUTIONS OF HIGHER 
 EDUCATION WILL HAVE TO ENSURE THAT THE UNITED STATES HAS THE SKILLED 
 AND DIVERSE WORKFORCE IT WILL NEED TO SUCCEED TODAY AND IN THE FUTURE

                               __________

                              MAY 19, 2005

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions

                    U.S. GOVERNMENT PRINTING OFFICE
21-456                     WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
BILL FRIST, Tennessee                CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                  (ii)

  
  




                            C O N T E N T S

                               __________

                               STATEMENTS

                         THURSDAY, MAY 19, 2005

                                                                   Page
Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, opening statement...............................     3
Murray, Hon. Patty, a U.S. Senator from the State of Washington..     4
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia, 
  opening statement..............................................     5
Caldera, Louis, president, University of New Mexico..............     7
Hoff, Edward, vice president, Learning for IBM...................     8
McGuire, Patricia, president, Trinity University.................     9
Mullen, James, president and ceo, Biogen.........................    10
Jackson, Edison O., president, Medgar Evers College..............    11
    Prepared statement...........................................    12
Sweeney, Patrick, president and ceo, Odin Technologies...........    18
Craves, Robert, founder, Costco Corporation, currently ceo and 
  president, Washington Education Foundation.....................    19
    Prepared statement...........................................    20
Nolte, Walter, president, Casper College.........................    21
Reed, Charles, chancellor, California State University...........    22
    Prepared statement...........................................    23
Palmer-Noone, Laura, president, University of Phoenix............    26

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Sheeran, Rev. Michael, S.J., president, Regis University.....    37

                                 (iii)

  


ROUNDTABLE: HIGHER EDUCATION AND CORPORATE LEADERS: WORKING TOGETHER TO 
                     STRENGTHEN AMERICA'S WORKFORCE

                              ----------                              


                         THURSDAY, MAY 19, 2005

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 106, Dirksen Senate Office Building, Senator Enzi 
(chairman of the committee) presiding.
    Present: Senators Enzi, Alexander, Isakson, Kennedy, 
Murray, and Reed.

                   Opening Statement of Senator Enzi

    The Chairman. Good morning and welcome to today's 
roundtable discussion with higher education and corporate 
leaders on how we can work together to strengthen America's 
workforce. I want to thank today's participants for coming and 
for their help in defining the roles industry and institutions 
of higher education will need to ensure that America has the 
skilled, diverse workforce that it will need to succeed in 
today's marketplace and for many tomorrows to come.
    Education beyond high school and lifelong education 
opportunities are vital if we are going to retain our 
competitive edge in the global market and make every American a 
part of our Nation's success. To provide our workforce with 
education and training they will need to meet the needs of 
tomorrow's workplace, we will need to strengthen the 
connections between postsecondary education institutions and 
businesses. Technology, demographics, and diversity have 
brought far-reaching changes to the U.S. economy and the 
workplace, including an increase in demand for a well-educated 
and highly-skilled workforce.
    Why do we need to be concerned about ensuring our workers 
have the right skills today and access to quality education and 
job training to keep their skills current so our businesses 
will remain competitive? Simply put, if we continue on the path 
we are on, we will not have the people with the talent and the 
skills they will need for the jobs that will be created over 
the next few years. I say this because within the next 5 years, 
it is predicted we will face a workers' gap of 7 million 
workers. Two-thirds of that gap will be due to a shortage in 
skilled workers.
    Let me share a few facts that support the seriousness of 
this skills gap. Approximately 60 percent of tomorrow's jobs 
will require skills that only 20 percent of today's workers 
possess. In this decade, 40 percent of the job growth will be 
in jobs requiring a postsecondary education. Those jobs 
requiring associate degrees will grow the fastest. Seventy-five 
percent of today's workforce will need to be retrained to keep 
their current job.
    The skills gap promises to get worse unless Congress acts 
now to provide the guidance and vision necessary to train a 
generation of workers to fill those jobs of tomorrow. In this 
global economy, the process of learning is never over and 
school is never out. Technology will continue to demand that 
everyone learn and gain the skills they need to remain 
competitive in the workplace. If our students and workers are 
to have the best chance to succeed in life and employers to 
remain competitive, we must ensure that everyone has the 
opportunity to achieve academically and obtain the skills they 
need to succeed regardless of their background.
    We must address the current shortage of well-educated and 
highly-skilled workers through partnerships among businesses, 
institutions of higher education, and the government, and we 
must do so before the shortage becomes any worse. Improving 
communication so universities will know what businesses need, 
and then providing the necessary training and education to 
address those needs will be critical if we are going to succeed 
in retooling the workforce.
    For many people, acquiring postsecondary education or 
training is the key to their success. To prepare workers for 
high-wage, high-skill, and high-demand occupations, we have to 
support rigorous training and education programs that will lead 
to degrees or industry-recognized credentials in employment. We 
need to provide training and relevant job skills to small 
business owners or operators to facilitate small business 
development in high-growth industries. We need to expand or 
create programs for distance, evening, weekend, modular, or 
compressed training opportunities that will provide skilled 
training in high-growth, high-demand industries.
    We need to promote entrepreneurial skill and micro 
enterprise training. We need to strengthen connections between 
employers and postsecondary education and training, and we need 
to provide the incentives for collaborative planning.
    The Higher Education Act provides us with the opportunity 
we need to encourage greater cooperation and collaboration 
between business and postsecondary education. We must find ways 
to encourage students from diverse backgrounds to pursue 
education and training in high-demand fields.
    Our focus will not only be on new students attending 
college for the first time, but also on adult learners who will 
be returning to college for additional training. Institutions 
of higher education need to work with employers and their 
employees, who must have access to continuing education and 
training that is flexible and responsive to rapid changes in 
the marketplace.
    The task before us is not easy. There are many challenges 
with serious consequences. I prefer to think of them as 
opportunities. The decisions we will make about education and 
workforce development will have a dramatic impact on the 
economy and our society for a long time to come.
    There is no monopoly on good ideas here in Washington, and 
that is why I am looking forward to hearing from all of you. I 
like the roundtable format. It gives us a lot more information 
than we would otherwise be able to get.
    We will be somewhat limited on time. I am told that we will 
have to conclude by 11:30 a.m., under some of the Senate rules 
today, so we will work toward that goal.
    I will turn it over to Senator Kennedy.

                  Opening Statement of Senator Kennedy

    Senator Kennedy. Thank you very much, Chairman Enzi. First 
of all, I want to thank Chairman Enzi for the opportunity to 
bring all of us together in this different format that is the 
Enzi creation. Instead of having the traditional panels of 
speakers this format permits an interaction which I think has 
been remarkably successful when we considered some other 
challenging issues, pensions, for example, and so I want to 
thank him for giving us the opportunity to bring some really 
extraordinary individuals and thoughtful leaders of our 
community together and emphasizing the connection between 
business and higher education. This is very, very important.
    I want to say that this is, I think, one of the most 
important hearings, certainly one of the most important issues 
that we face. When we were facing the industrial revolution, we 
developed the public school systems. That was actually in 
Massachusetts.
    After World War II, when so many of the young men and women 
had given up 5, 7, 8 years of their lives to save their 
country, President Roosevelt decided to create the GI bill. It 
was enormously successful, and paid $7 into the Treasury for 
every dollar invested in veterans' education.
    We faced Sputnik and we reacted and responded with the 
National Defense Education Act. Out of every dollar that was 
expended, 5 cents of that dollar was expended in education, not 
that money is everything, but it is a pretty clear indication 
of a Nation's priority.
    We are now down to a cent-and-a-half, and I thought it was 
just really unfortunate in this last budget when the Senate 
committed $5.5 billion in new money for education. It was 
stripped in conference. That is the wrong priority. We have 
some rather basic ideas in response to a number of the things 
the chairman says, but we have to try and at least get it 
straight, even as we are dealing with the current problems of 
today.
    Today, it is globalization. We are either going to be run 
out of town or we are going to get on top of it, and to get on 
top of it, it means we are going to have to invest in 
education. We have now 300,000 Chinese engineers that are 
graduating annually, 200,000 in India. We are graduating 50,000 
engineers and half of them are from overseas. We have a 
problem.
    We have a problem, because access to higher education in 
the United States is going down in terms of our college-age 
population, and in every other industrial Nation of the world, 
it is going up. What is it that other countries understand that 
we don't? It is the importance of investing in education and 
research and development.
    When we see some of the cutting-edge companies that are 
expanding and growing, not just outsourcing jobs to India, but 
putting some of their research centers into India, we know that 
we have some very serious problems.
    We need to make this investment for a number of reasons. 
One, in order to remain the commercial leader of the free 
world. Two, so we have a national security that is second to 
none. And three, to have educated men and women that are going 
to be able to lead our democratic systems.
    John Adams, one of my great heroes, wrote in the 
Massachusetts Constitution, in 1780, 8 years before the Federal 
Constitution, the education of our citizens is necessary for 
the preservation of their rights and liberties. Every single 
State Constitution has a reference to the importance of 
education. Yet we are not hearing it here in the U.S. Congress. 
The American people, I think, are well ahead of us. We have got 
some enormously talented people who understand this.
    I want to thank my friend Jim Mullen from Massachusetts, 
the president of Biogen, who has been very much involved in 
caring about this issue. We are very, very grateful. I am to 
all of the people that are here. And Ted Hoff, who I have known 
for years, this has been an area in which he has been 
enormously energetic and he has been an important leader, as 
well. I thank all of those, one way or another, who I have had 
a chance to meet and work with in different ways.
    I thank the chairman and I thank our colleagues who are 
joining us in our committee this morning. Thank you, Mr. 
Chairman.
    The Chairman. Thank you very much.
    Senator Murray, did you have some comments you would like 
to make?

                  Opening Statement of Senator Murray

    Senator Murray. Thank you very much, Mr. Chairman. I really 
appreciate the opportunity to be at this hearing and thank you 
and Senator Kennedy for having this hearing and to all of our 
participants for coming today to talk about what is a 
critically important topic, as both our chair and ranking 
member have discussed already.
    I particularly want to welcome from my home State Bob 
Craves, who is here with us today, and thank him for traveling 
across the country to be here. When I heard we were having this 
hearing, I couldn't think of a better person to be here to talk 
to us about how we can make college more accessible and 
affordable for low-income students. Bob was a founder of Costco 
and served there for a long time as senior vice president. He 
has a tremendous education background and served on the 
Washington State Higher Education Coordinating Board and was 
co-chair of the 2020 Commission on the Future of Postsecondary 
Education.
    But I think what is most important is his contribution in 
co-founding a group called the Washington Education Foundation, 
which brings together community leaders in my State to help 
thousands of students who are left behind, who aren't 
adequately served or don't have any kind of support to give 
them college education. And through his foundation, he has 
raised more than $150 million and provided 2,500 scholarships 
as well as providing college mentors for students. He has made 
a real difference in the lives of many students who would have 
been left behind, and it is through his business experience and 
his community pride that he has really contributed in our State 
and I think he will be an excellent voice here. Bob, thank you 
so much for all you do and for being here as part of this 
discussion.
    The Chairman. Thank you.
    Senator Isakson, any opening statement?

                  Opening Statement of Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman. I will just take 
a minute. I was looking at the panelists. I am delighted to 
welcome Dr. Palmer. I just had the pleasure of speaking to 
Phoenix's commencement in Atlanta and got to see first-hand the 
reach that they are making. IBM's presence in Georgia with a 
lady by the name of Ann Cramer, who I think is probably 
familiar to our IBM people, has done a tremendous job in 
helping public education and access to education in our State.
    The one comment I would make is my perception is that too 
many of us in policy think of students and education in the 
sense of when we went to school and who we were, and what we 
called nontraditional students when I went to school in the 
1960s is more the traditional student of today. I think we have 
to make sure that education is accessible in that way, both at 
the traditional State institutions, as well as the privately-
operated schools, as well as all those schools that deal with 
specificity of trades or specialties.
    I am delighted to be a part of the panel today and 
appreciate the chairman putting together this type of format. 
Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I appreciate all of you being here. Today's discussion, as 
Senator Kennedy mentioned, will proceed in a little different 
manner than a typical Senate hearing. We want a little bit more 
interaction. The purpose of the roundtable is to hear from the 
participants on a variety of viewpoints, how institutions of 
higher education and business can work together to strengthen 
the workforce.
    We have requested that the participants not make an 
official oral opening statement. However, the hearing record 
will remain open for 10 days so if participants wish to submit 
statements, a prepared statement that they may already have or 
one that they may want to prepare after hearing the discussion, 
any expanded comments that you might have, the record will be 
open for 10 days so that the supplemental statements or opening 
statements can be made a part of the record of today's 
roundtable.
    Before we begin, I would like to discuss a couple of 
guidelines of a roundtable. If any of you would like to answer 
a question that is being asked by us or would like to respond 
to a comment made by one of your colleagues, kindly stand your 
name tag on end and we will keep track of the order in which 
those come up and call on you in that order.
    In order to keep the dialogue moving, we do request that 
your responses be 2 minutes or less. There is a lot of ground 
to cover. We may vary the format occasionally to fit the 
discussion.
    I would like to introduce our distinguished panel of 
participants who represent a wide variety of institutions and 
businesses. We are extremely fortunate today to have a 
distinguished and formidable panel of peers. Each one of our 
participants is an expert in the respective area.
    Our participants today are Mr. Louis Caldera, the president 
of the University of New Mexico; Mr. Robert Craves, the founder 
of Costco Wholesale Corporation and currently the ceo and 
president of the Washington Education Foundation; Mr. Edward 
Hoff, the vice president for Learning of IBM; Dr. Edison 
Jackson, the president of Medgar Evers College; Mr. James 
Mullen, the president and ceo of Biogen; Dr. Laura Palmer-
Noone, the president of the University of Phoenix; Dr. Walter 
Nolte, the president of Casper College.
    I would like to take a moment to do a special welcome for 
Dr. Nolte, who is the president of Casper College of Casper, 
WY, a city that dominates the center of the State. It varies 
between being the largest city in Wyoming and the second-
largest city in Wyoming, with a population around 52,000 
people. But it is right at the heart and it is a college that 
has a little different role than some of the other community 
colleges because it also provides some 4-year degrees. I would 
like to welcome you and thank you for being with us today. I 
know what the journey entails.
    We have Dr. Charles Reed, who is the Chancellor of the 
California State University; and Mr. Patrick Sweeney, who is 
the president and ceo of Odin Technologies. Reverend Michael 
Sheeran, the president of Regis University would like to have 
been here, but he is under the weather and sends his regrets. 
In light of his illness, Ms. Patricia McGuire, the president of 
Trinity University, will be participating in this panel.
    I do want to extend a special welcome to Sally Stroup, who 
is the Assistant Secretary for Postsecondary Education in the 
Department of Education. She is with us today and we feel very 
fortunate to have a representative from the Department of 
Education of your caliber here listening. It is really a help 
when the administration shows up to absorb along with us so 
that they understand the direction we are going as we develop 
legislation based on what we have heard at these meetings. So 
thank you for being here today.
    To each and every one of you, welcome. Thank you for taking 
time out of your busy schedules to be with us today. I know 
many of you have traveled great distances to be here. Since we 
do have a little bit of a deadline to meet, I will start with 
the first question.
    The topic, of course, is how to form partnerships between 
businesses, institutions, and the government to ensure that the 
American workforce has the skills needed to remain globally 
competitive. Questions we asked you to consider are, what are 
the respective roles of each partner, and what can be done to 
facilitate communication and coordination between the partners?
    Does anybody want to lead off? Mr. Caldera.

STATEMENT OF LOUIS CALDERA, PRESIDENT, UNIVERSITY OF NEW MEXICO

    Mr. Caldera. Thank you, Mr. Chairman. We deeply appreciate 
your holding this hearing and inviting us to participate.
    Clearly, the partnership structure is absolutely the right 
way to go. We could not do our jobs as research universities 
without Federal support for research and for education. 
Corporate America can't be walled off from what happens in our 
schools, colleges, or universities, waiting to see if the end 
product is something that works. They have got to be active 
participants in that process. And universities have to be 
innovative and change so that we are not just doing what worked 
in the past, but doing what is going to be important to prepare 
the right kind of workforce and the right kind of research and 
scientific breakthroughs for the future.
    That this is the right strategy is clearly underscored by 
what is happening in other countries and the level of 
investment that is occurring in the European Union, in China, 
in Singapore, and in India, and to travel to those places and 
to look and to see the level of involvement by businesses in 
support of those universities from the educational programs to 
the construction of research facilities and laboratories to 
research partnerships that lead to commercialization is to see 
people pursuing exactly a strategy of closer cooperation 
between the three.
    Just two points I would like to make very quickly. One is 
one of the things that we have found has worked the best is 
when we have education that involves students and corporate 
America coming together. So, for example, we have the 
manufacturing, technology, and training center that was funded 
in part through EDA funding, Department of Commerce EDA 
funding, in part through State funding, where it is involved in 
both undergraduate and graduate education, because students are 
very active participants in the clean room that is comprised by 
this manufacturing, technology, and training center, and small 
businesses and start-ups are able to use it with the support of 
Intel and folks, semiconductors and others, we have a 
laboratory where students aren't just learning but start-ups 
are being able to, at much lower costs to themselves, 
manufacture products that they are using as the basis for 
creating new companies and a very different kind of knowledge-
based economy in New Mexico. That kind of hands-on involvement 
in real world applications, not just in theoretical classroom 
discussions, I think is critically important.
    I think one of the challenges is how do we get business 
engaged with more institutions across the spectrum of higher 
education in our country. I happen to lead a Hispanic-serving 
institution that is the most diverse public flagship university 
in the country, 44 percent minority enrollment. Yet I know that 
many of the kinds of employers who should be coming to or 
involved with an institution like mine aren't.
    And I will tell a story that I thought about on the way 
over here. I have served and serve on several corporate boards, 
Fortune 500, and Fortune 1,000 companies. I have never met a 
minority accountant on any engagement on any of those boards, 
ever. And I have asked those--and as we have done our rehiring 
of the corporate board, I have asked them and they assure me 
that there are minority partners and minority accountants at 
the firms. So then I would ask them, where do you recruit? All 
of the schools that they named as the schools where they 
recruit are schools that have very, very low minority 
enrollment. They are not recruiting and are not engaged with 
institutions like mine, that have superb accounting programs--
every single one of our graduates was placed last year.
    So that engagement has to be broader than with just those 
handful of institutions that have been, for whatever reason, 
that is where we go to get the top graduates. There are top 
graduates at State universities and at very diverse 
universities that also have the potential to make tremendous 
contributions to our country. So that engagement has to be 
broader than with just the very top of our elite research 
universities.
    The Chairman. Thank you. I would ask people to keep their 
comments short because we are going to have a lot of people 
that will want to contribute and, in some cases, counter things 
that were said or add to them.
    Thank you.
    Mr. Hoff.

   STATEMENT OF EDWARD HOFF, VICE PRESIDENT, LEARNING FOR IBM

    Mr. Hoff. I just want to convey a point of view from IBM 
about the partnership that exists between the business and the 
universities that we have today, but what might be a role of 
government to foster that, as well.
    We are seeing in IBM that what we need to deliver value to 
our clients is people who, yes, know technology--we are a 
technology-based company--but people who also know business and 
understand the services and the processes that are embedded in 
businesses and people who have some leadership skills to be 
able to bring people together across different dimensions.
    So as a company, we are trying today to work with 
universities to establish a curricula that is more 
interdisciplinary and actually change some of the degrees that 
the universities are providing. We are calling it a services-
sciences curricula and degrees.
    Now, in IBM, we did this 40 years ago when we essentially 
created the commercialization of IT and all the processes 
underneath this. We worked with a number of universities to 
establish the curricula and the degrees around information 
technology. We have concluded that, as a firm and as a society 
in the United States, we need to do that again. So we are 
working with all the universities that are primary partners 
with us, and that is working fine. It is working very well.
    But my perspective is that there is a role of government in 
here. If you go back to some of the statements that were made 
earlier, there was a point of view that the government took in 
the late 1950s, early 1960s about what was going to be needed 
for the United States to be able to respond and around that, 
there was an investment that was made, the National Sciences 
Foundation and so forth, that essentially pulled both 
universities and businesses toward this point of view about how 
we needed to develop people.
    So one thought that I might convey is that the government 
could play a role if it has a point of view about where the 
future is headed and about what kind of skills are needed and 
what kind of investment is going to be made. And it is part 
about money, and people do follow the money. But it is also 
about the statement about where we are headed as a world and 
what we need to do to compete.
    I will just say very quickly, when we work with China and 
India, the governments and the universities are very tightly 
combined with us as a three-part partnership--us, the 
universities, and the government around what kind of people are 
needed and how we are going to develop them. My own perspective 
is that that is the--the part of that three-part partnership 
that may need to be strengthened here is the government part of 
it. We know what universities we work with. We are going to 
work with them to try to create this services-sciences. But 
there may be a need right now because of globalization for the 
government to take the kind of role it had taken before in our 
history.
    The Chairman. Thank you.
    Ms. McGuire.

  STATEMENT OF PATRICIA McGUIRE, PRESIDENT, TRINITY UNIVERSITY

    Ms. McGuire. Thank you, Senator Enzi, and thank you for 
convening this important meeting today.
    I think the story of Trinity in Washington is illustrative 
of how concern for workforce education has worked with the 
business community and with government to transform 
institutions, as well, and I hope our story can help inspire 
continuing transformation. We are one of the Nation's historic 
catholic women's colleges that today serves a remarkably 
different population than we did when I attended Trinity and 
when our distinguished alum Nancy Pelosi attended Trinity in 
the early 1960s.
    Today, Trinity serves a highly diverse population that is 
85 percent African American and Latina. Ninety-five percent are 
low-income, and 75 percent are over the age of 25. Our median 
family income today is about $35,000 a year, which is 
remarkably different from the public institutions in our 
region, which have significantly higher median family incomes. 
And we are able to serve the several thousand students we serve 
largely as a result of the very generous Federal financial aid 
programs, which we applaud and are grateful for and our 
students are grateful for.
    As we considered how to create a new institution for the 
21st century, we turned to our business community, and I, like 
all of the university presidents here in the District of 
Columbia and the Washington region, serve as a board member of 
the Greater Washington Board of Trade. Through our work with 
the Board of Trade, we have all been deeply involved with 
workforce development issues in the Washington region, and that 
is a key component of the model.
    Directly as a result of that work, we began to change our 
curriculum at Trinity in order to be responsive in a more 
direct way to the changing workforce needs of this region and 
we received considerable support from our business community as 
a result. One of the partnerships that we formed was with Time-
Warner, America-on-Line, and thanks to their support and also 
the support of the U.S. Department of Education through the PT3 
program, Preparing Tomorrow's Teachers for Today's Technology, 
we were able to revamp the way in which we use technology in 
our classrooms to train teachers, and as a byproduct, to train 
all of the new professionals that are coming out of our 
programs.
    In a similar way, the Department of Labor had a Workforce 
Investment Program for information technology, and with another 
grant through the Department of Labor, the local Workforce 
Investment Council in DC., and a coalition of corporate 
partners, such as Marriott, Deloitte Touche, and others, we 
created another program that focused on workforce development 
for individuals who were not yet in college and needed a 
pipeline to come into college in order to be able to acquire 
the information technology, the skills they needed to be 
successful, including targeting workers such as custodians who 
worked in the hospitality industry who wanted to move up into 
front-line positions, working desks, and so forth.
    We are now working on another kind of partnership for the 
health care industry. Just this morning--I am on the board of 
the Washington Hospital Center--I told them I had to leave the 
meeting to come here, and I told them why and they said, please 
go because workforce development for the health care industry 
is one of the great critical needs. We are partnering with 
MedStar and Kaiser Permanente to build out our health 
professions programs, nursing and allied health, as well. And 
as a result of that, another piece of what we are doing is, for 
the first time ever, moving across the river to a new location 
in Southeast Washington in Ward 8 to open higher education 
program specifically targeting health professions in the 
Southeast Washington neighborhoods that are critically 
underserved by higher education.
    These are just some examples of how partnerships with 
business in the critical workforce areas have helped to change 
our curriculum. Our faculty has been very open to it. And all 
of this has been made possible, as well, thanks to leadership 
and initiative by the Department of Education and also most 
critically by the kind of support our students receive through 
the Pell grants as well as the Federal loan programs.
    We serve a population here in the District of Columbia that 
is critically low-income. Some of the poorest of the poor are 
actually enrolled at Trinity, a private institution. We provide 
a significant amount of tuition discount. We are not well 
endowed. Our endowment is only $10 million, so it is not like 
we have a lot to give. But we discount our tuition heavily and 
we leverage the aid significantly to help our students become 
successful and they really are.
    So that is just some models for you to consider.
    The Chairman. Thank you very much.
    Mr. Mullen.

      STATEMENT OF JAMES MULLEN, PRESIDENT AND CEO, BIOGEN

    Mr. Mullen. Thank you, Senator. I wanted to focus on, 
without going back over territory that has already been 
covered, and I wanted to pick up on one of your opening 
statements, which is this numbers gap and that is quite 
concerning.
    I represent not only a health care company, but a health 
care industry, I think, in saying this, and we have focused on 
the front end of the pipeline as well as the back end of the 
pipeline, which is how you excite kids when they are in 
elementary school, in middle school, in high school, and I 
think there are some creative ways to do that. A simple 
government approach there was a conversation with the mayor and 
I said, we will open up our labs if you will open up your 
schools. We have constructed labs and we have now put about 90 
percent of the 8th graders in the City of Cambridge through 
courses in our own laboratories. The goal, just to excite a few 
of these kids, and then second, also to make sure we are 
exciting all the kids.
    So it was, traditionally, you see a lot of, as you go 
through the graduate programs and what not, get into secondary 
education, you see plenty of Northern European descent, plenty 
of Asian, but we are not seeing the black community and we are 
not seeing the Latino community and we are able to get more of 
that going.
    Second, we have had great success with some help from 
government funding on really setting up and enabling 
partnerships between the industry and the community colleges or 
the universities for workforce retraining. So where we see a 
shift in the industry base to really put together programs that 
are going to be appropriate for a broader range of people, to 
retrain them and move them from one industry to another. We 
have had great success with that in North Carolina as they have 
moved from software and other high technologies to 
biotechnology manufacturing.
    The last point I would make is to make sure we keep our eye 
on the NIH and the NSF funding. That is the funding source that 
really drives the graduate-level programs in higher education, 
in science, engineering, and math. We have got to do everything 
we can to keep that going. That is a foundation of basic 
science that is important to competitiveness, but it also is 
the money that enables these students to go on and get Ph.D.s, 
M.D.s, and advanced degrees.
    Thank you.
    The Chairman. Thank you.
    Dr. Jackson.

STATEMENT OF EDISON O. JACKSON, PRESIDENT, MEDGAR EVERS COLLEGE

    Mr. Jackson. Thank you, Mr. Chairman. I would like to come 
at the question a little differently. When you spoke about, in 
your opening statement, about diversity, increasing diversity, 
one of the challenges that we have in this Nation and we need 
to acknowledge, that there is increasingly a disinvestment in 
higher education in the education. We have got two issues. We 
have a short-term--we need to have a short-term solution as 
well as a long-term solution.
    I represent Medgar Evers College and the City University of 
New York, 5,346 students, most of whom are of African descent, 
and I also speak on behalf of the NAFIO institutions. What I 
would like to challenge the business community is to begin to 
look at those wonderful institutions for potential employees. 
They are highly competent and capable, but we don't often look 
to them but we look to the same institutions over and over 
again, and yet we have this huge potential of fantastic 
graduates who could do great work.
    I want to talk about what is happening in our country, and 
particularly in minority communities. We are pricing higher 
education out of the reach of the most needy in our society and 
something has to be done about this. Otherwise, we will 
relegate that segment of our society, the margin of society, 
and the social costs associated with that sector will be 
enormous, and it is increasing.
    If you look at the graduation rates of minorities in this 
country, and particularly urban areas, instead of increasing, 
particularly males, black and Hispanic males, the graduation 
rate is not going up, it is going down. We know how to fix the 
problem. The question is, for me, do we have the will to do it? 
And that is the challenge for us in higher education. That is 
the challenge for us in government. That is the challenge for 
us in terms of industry.
    We have to think about how do we change the paradigm. How 
do we change the paradigm to increase not only access, but also 
equity of success in higher education and the K-12 system.
    So as we talk about models for business, government, and 
higher education, we need to think about how we increase the 
pipeline, those coming through the pipeline, and I want to 
share with you for a moment, in the historically black 
colleges, we have an agenda gap. Over 60 percent of the 
students enrolled in higher education in our institutions are 
female. At Medgar Evers College, I created a Male Empowerment 
Center because I want to change the paradigm. Last fall, I 
increased the male enrollment at Medgar Evers College by 23 
percent, and what we were able to do was to go out into the 
various communities and provide opportunities in education and 
information and showing people that education does matter and 
it can make a difference.
    So we need to begin to, as we talk about how we create 
greater models and collaboration, we need to talk about how we 
increase those who are disengaged in our society, who want to 
succeed but have not provided the opportunity or the 
encouragement or the mentoring and/or the information to get 
there.
    [The prepared statement of Mr. Jackson follows:]

                Prepared Statement of Edison O. Jackson

    Good morning Chairman Enzi, Ranking Member Kennedy, Senator 
Clinton, the Senator of the great State of New York, other members of 
the Health, Education, Labor, and Pensions (HELP) Committee here 
assembled, I thank you for affording me the opportunity to participate 
in this important discussion about strengthening the relationship 
between the Federal Government, industry, and higher education 
institutions to prepare a diverse cohort of well-trained professionals 
for tomorrow's labor force.
    I am pleased to appear before you this morning in my capacity of 
president of Medgar Evers College of the City University of New York. 
The foundation of Medgar Evers College was unlike that of any other 
college within the City University system. The community, in a 
collaborative effort that included the Bedford Stuyvesant Restoration 
Corporation, the NAACP, the Central Brooklyn Coordinating Council, 
local elected officials, and Central Brooklyn residents, formed the 
Coalition on Educational Needs and Services that successfully lobbied 
to establish the college to serve the educational, social, and economic 
needs of Central Brooklyn. When in 1971 the college opened its doors to 
its first class of 1,069 students, it was in the spirit of Medgar Wiley 
Evers, of James Meredith, of Martin Luther King, Jr. and all who 
believed in the transformative powers of education and the absolute 
right to equality.
    On July 30, 1970, Governor Nelson A. Rockefeller approved the 
``establishment of an experimental 4-year college of professional 
studies offering both career and transfer associate degrees and the 
baccalaureate degree, to be located in the Bedford-Stuyvesant area of 
Brooklyn.''
    Densely populated and ethnically diverse, Central Brooklyn is 
characterized as a primarily low-income, minority area, with low 
educational attainment rates, high unemployment, and faces many of the 
other urban challenges associated with economically depressed, inner 
city areas. Central Brooklyn is as well, home to the largest Caribbean 
population outside of the Caribbean.
    Named Medgar Evers College in memory of the courageous African 
American civil rights leader killed in his native Mississippi in June 
1963, the college opened its doors to its first class of students in 
1971. Integral to the mission of Medgar Evers College is the belief 
that education has the power to positively transform the lives of 
individuals and is the right of all individuals in the pursuit of self-
actualization. Consequently, the college offers programs both at the 
baccalaureate and at the associate degree levels, giving close 
attention to the articulation between the 2-year and the 4-year 
programs.
    To date, the college has graduated approximately 10,000 students. 
Just over a thousand are expected to graduate at our May 2005 
Commencement, of which approximately 600 are Baccalaureate degree 
recipients.
    I am also pleased to be here today as a member of the National 
Association for Equal Opportunity in Higher Education, NAFEO, the 
membership professional association of the presidents and chancellors 
of the Nation's 105 historically black colleges and universities, and 
the emerging predominately black colleges and universities: public and 
private, 2-year and 4-year, urban, rural, and land-grant, located in 25 
States, the District of Columbia, Virgin Islands, and Brazil. NAFEO 
president, Lezli Baskerville, is accompanying me here this morning.
    As many of you are aware, but others are not, NAFEO was founded 35 
years ago as the umbrella association of all of the Nation's 
historically and predominately black colleges and universities. Its 
mission is to champion the interests of HBCUs and PBCUs with the 
executive, legislative, regulatory, and judicial branches of Federal 
and State Government, and with corporations, foundations, associations, 
and non-governmental organizations; to provide services to NAFEO 
members; build the capacity of HBCUs, PBCUs, their executives, 
administrators, faculty, staff, and students; and serve as a voice for 
blacks in higher education.
    Today, the world into which HBCUs and PBCUs are sending students is 
much different than it was 35 years ago when NAFEO was founded, or 40 
years ago when HEA was initially passed. The institutions in which our 
students are enrolling are different and are evolving still to meet the 
changing characteristics of today's students, today's civic, social, 
political, ecumenical and labor force needs. These evolutionary 
occurrences are the driving forces behind the particular need for a 
strong industry/MSI partnership today. I cite just a few of the 
contextual predicates for this discussion from the vantage of HBCUs and 
PBCUs.
    In the 40 years since the Higher Education Act was passed, the 
Nation has become more colored, more culturally diverse, more global, 
more technological, and more virtual. The cost of higher education has 
escalated to keep pace with the growing scientific, security, and 
technological demands of the day: demands for information now, 
information on-the-go, and to expand the reach of the information we 
have and information we need beyond the boarders of campuses, counties, 
States, regions, and nations.
    Yesterday's non-traditional students are the traditional students 
of today and tomorrow. Today students older than 24 years or enrolled 
on a part-time basis are the majority of all students. An estimated 55 
percent of students fall into these categories.
    Today, most new jobs require a postsecondary education. To meet 
these employment needs will require training a more diverse and 
technologically sophisticated workforce. The projected labor market 
needs and demographic shifts into 2014 dictate a re-examination of who 
will receive and who must be able to access and achieve a postsecondary 
education. The number of high school graduates is growing and is 
becomingly increasingly diverse. By 2007-08, 43 percent of graduating 
seniors will be racial and ethnic minorities. By 2014 roughly 50 
percent of the students ``Knocking at the College Door'' will be 
traditionally underrepresented minorities, according to a December 2003 
report of the Western Interstate Commission for Higher Education 
(WICHE) in partnership with the College Board and ACT.
    Not only is the racial and ethnic distribution shifting, but the 
gender distribution is shifting as well. Today in excess of 55 percent 
of college students are women, up from 45 percent in 1976. An alarming 
nearly 70 percent of students on many HBCU campuses are female on 
average, in part because of a tragic trend documented in a report by 
the Schott Foundation, that shows that nearly 60 percent of African 
American males are not graduating with their high school cohort for a 
number of well documented psycho-socio-economic reasons.
    The South, where most HBCUs are located, will experience the 
greatest growth in high school enrollment, with nearly 751,700 more 
students expected in 2007-08 than in 2001-02 or a 5 percent growth 
rate. It will also experience the greatest gender gap with fewer than 
50 percent of African American males graduating with their cohort in 
all Southern States except Virginia, where according to Public 
Education and Black Male Students: A State Report Card, prepared by the 
Schott Foundation, 55 percent of African American males will graduate 
with their cohort, as compared with 73 percent of White males. This 
reflects a 17 percent achievement gap.
    The Northeast is projected to see a decline in public school 
enrollment between 2007 and 2008, with an estimated numerical loss of 
207,700--a 2 percent decline. This reflects the largest projected 
decline in high school enrollment of any region in the Nation. By 2018, 
it is projected that the Northeast will experience a slight enrollment 
increase; with 700 more graduates in the class of 2018 than in the 
class of 2014.
    It is projected that the high school graduates of all regions will 
become increasingly diverse. As college-eligible students become 
increasingly diverse and increasingly non-traditional, there is 
evidence that 25 percent of high-ability, low-income high school 
graduates are locked out of college despite 30 years of systematic 
investment in student aid; and despite the best efforts of this and 
past administrations. These high-ability, low-income students are 
locked out of college because they have unmet financial need--$3,700 
per year, on average. (Access Denied, Restoring the Nation's Commitment 
to Equal Educational Opportunity. A Report of the Advisory Committee on 
Student Financial Assistance, 2001).
    High ability, low-income students are also increasingly locked out 
of college because State flagship universities, that have a legal 
responsibility by Federal mandate to be ``the peoples' universities'' 
are doing a poor job of enrolling and graduating African American 
students, Hispanic students, and American Indian students. According to 
a recently released report by Thomas G. Mortenson, the Senior Scholar 
at the Pell Institute for the Study of Opportunity in Higher Education, 
at this time when State public higher education institutions should be 
doing more to enroll and graduate traditionally underrepresented 
populations, because of their growing numbers in the population, most 
of our flagship universities are doing a grossly inadequate job of 
enrolling African Americans, Hispanics, and American Indians.
    Despite some recent progress, among the universities that Dr. 
Mortenson found to be least engaged in enrolling underrepresented 
minorities present in higher education in their States, and most 
segregated are: the University of Georgia, University of Mississippi at 
Oxford, Louisiana State University, Baton Rouge, University of 
Tennessee, Knoxville, University of Delaware, University of Texas, 
Austin, University of Arkansas, Fayetteville. These are all States with 
HBCUs. The Mortenson report goes further to conclude,
    ``As these State flagship universities disengage from the 
demographic changes occurring in their States, they diminish their 
justification for further State financial support for their operations. 
As flagships increasingly focus on the affluent shrinking majority 
populations in their States, then State political leaders should 
reallocate State higher education investment resources toward those 
institutions and programs that are serving these growing populations on 
which the State futures depend.
    ``To maximize social welfare and diminish the many divisions that 
fracture our Nation, Federal resources devoted to broadening higher 
education should also be reallocated. Institutions that are disengaged 
from serving the growing demographic groups on which our country's 
future depends should be suspended from further title IV student 
financial aid program eligibility. Institutions that are disengaged 
should be placed on probation and challenged to engage or face 
suspension. And those institutions that are reaching out to these 
growing demographic groups should be strongly supported for the 
important work they are doing.
    ``Moreover, many of these same State flagship universities that are 
turning away from addressing demographic opportunities have accumulated 
significant endowments (profits) that remain tax free: UT system 
($8.7B), Univ. of VA ($1.8B), Ohio State U ($1.2B) UNC CH ($1.1B) Penn 
State U ($.900M), University of Illinois ($900M), University of 
Delaware ($900M).
    ``These public universities have accumulated huge profits but most 
appear unable or unwilling to enroll their State shares of 
underrepresented minority populations. They do not lack resources--they 
lack will.''
    The Mortenson Report has public policy implications worthy of our 
consideration. As we seek to invest more equitably and efficiently in 
higher education, to prod higher education access and success, and to 
focus on outcomes-based education, we should invest proportionately 
more in those institutions, like HBCUs, that continue to enroll and 
graduate disproportionate numbers of traditionally underserved 
students. This approach would foster at least three of the 
administration's higher education goals: (1) promoting access to 
postsecondary education; (2) containing college costs and prices; and 
(3) fostering standards and accountability.
    Relative to promoting access and success, educating more diverse 
students has long been the province of the Nation's historically and 
predominately black colleges and universities. As one author noted, 
``HBCUs remain the patron saints of universal access.'' HBCUs and PBCUs 
are, in fact, the ``patron saints of universal access AND 
opportunity.''
    By patron saints of ``access and opportunity'' I emphasize that 
HBCUs and PBCUs are not just opening their doors to opportunity to a 
broad and diverse group of students, many of whom have been 
traditionally underserved, but also offering students a college 
opportunity that is appropriate for their aspirations, preparation, and 
abilities. They are giving traditionally underserved students--the 
growing majority in America--an opportunity for a successful 
postsecondary experience.
    Regarding the national effort to contain college costs, HBCUs and 
PBCUs are generally offering a good return on the investment. According 
to data from The College Board's Trends in College Pricing 2004, and 
the 2004 NAFEO Enrollment Survey of HBCUs, private HBCUs on average 
cost $10,000 per year less than their white counterparts, when tuition, 
fees, room and board are factored in. Public HBCUs on average cost 
$1,000 less than their white counterparts. That HBCUs are by-and-large 
offering a good return on their investment is supported by some of the 
outcomes:
    <bullet> HBCUs represent only 3 percent of all colleges and 
universities, yet they enroll 16 percent of all African Americans in 4-
year degree granting institutions;
    <bullet> They graduate 30 percent of African Americans receiving 4-
year degrees, and 40 percent of African Americans receiving 4-year 
degrees in STEM areas;
    <bullet> Twenty-four percent (24 percent) of all Ph.D.'s earned 
each year by African Americans are conferred by 24 HBCUs;
    <bullet> Eighteen (18) of the top 23 producers of African Americans 
who go on to receive science related Ph.D.'s are HBCUs;
    <bullet> Four (4) of the top 10 producers of successful African 
American medical school applicants are HBCUs. These HBCUs produce 20 
percent more African American applicants than the other six (6) 
institutions combined;
    <bullet> Eight (8) of the top 10 producers of African American 
engineers are HBCUs.
    The outcomes are not all good, as you know. HBCUs and PBCUs like 
their white counterparts, are losing far too many students. According 
to a new survey by The Education Trust, only 60 percent of all college 
students are completing undergraduate study in 6 years. The graduation 
rates at HBCUs and PBCUs are as varied as they are at HWCUs and we must 
reverse this trend. HBCUs and PBCUs have a responsibility and unique 
qualifications to improve the education outcomes of their students. 
HBCUs have a rich history of enrolling, nurturing, transforming, 
graduating and sending disproportionate numbers of African American 
students to graduate and professional schools, especially in the STEM 
areas. HBCUS and PBCUs must do better.
    This leads to my final contextual observation I believe in 
standards and accountability. Medgar Evers and other predominately 
black colleges and universities want to work with Members of Congress 
and a business partnership to ensure an accountability system that is 
equitable and efficient; a system that factors in developing 
scholarship, expanding diversity and access, increasing learning, 
retention, and graduation; and facilitating post-graduate public and 
private service in areas of high need. I believe that such an 
accountability system can be designed in a manner that does not have a 
chilling impact on creative teaching and learning; and that does not 
infringe the First Amendment Academic Freedom of a college or 
university to determine for itself who may teach, what may be taught, 
how it shall be taught, who may be admitted to study and how successful 
completion will be gauged. Medgar Evers College, and our national 
umbrella association NAFEO, look forward to working with you to craft 
such a system.

      TITLE II--TEACHER QUALITY ENHANCEMENT GRANTS FOR STATES AND 
                              PARTNERSHIPS

    Title II currently provides competitive grants to improve teacher 
education programs, strengthen teacher recruitment efforts, train 
future teachers to utilize technology more fully, and improve student 
achievement. In addition, this title establishes certain evaluation and 
reporting requirements for States that receive grants, and higher 
education institutions, in an effort to assess the quality of teacher 
education programs, primarily through the reporting of pass rates on 
teacher certification examinations. Institutions in which a teacher 
education program is designated ``low performing'' are ineligible for 
faculty development funding and barred from accepting into its teacher 
ed program any student receiving title IV funding.
    Improving teacher education is a key component to improving 
tomorrow's education workforce. There simply are not enough teachers 
for the classrooms. The teaching profession serves as a gateway to all 
other professions, and the path through which a literate democracy must 
tread. With the ever increasing standards that have emerged since the 
landmark, A Nation At Risk Report, class size reduction initiatives, 
swelling numbers of immigrant and baby boomer children, and the 
``graying'' teaching force, the United States is experiencing critical 
teacher shortages. The problem--especially acute in urban and rural 
districts and in the hard-to-fill areas of special education, 
mathematics, and science--is so severe that:
    <bullet> Forty-two States issue emergency credentials to people who 
have taken no education courses and have not taught a day in their 
lives. Many teachers are hired based solely on their experience leading 
church or camping groups.
    <bullet> One-fourth of new teachers--if they are licensed--are not 
licensed to teach in the field they are teaching.
    <bullet> Twenty percent of new teachers leave within the first 3 
years; most likely to leave are those with the highest college-entrance 
exam scores. A whopping 49 percent of those who leave do so because of 
job dissatisfaction or to pursue another career.
    In addition to the growing number of students, new standards that 
require smaller teacher-student ratios, and retirement and attrition, 
other factors have contributed to the current situation. A lack of 
teacher mobility, inadequate induction programs, poor working 
conditions, the lowest unemployment rate in 3 decades, and a growing 
salary gap between teachers with master's degrees--all help to explain 
why our Nation is experiencing the worst shortage of qualified teachers 
ever in its history.
    To meet the demands for qualified, diverse, culturally sensitive 
teachers, especially in traditionally underserved areas, we need well-
prepared teachers that can perform to high standards. Students 
attending predominately black colleges and universities, like their 
counterparts attending historically and predominately white 
institutions, are capable of meeting any and all certification 
requirements when afforded the necessary resources. However, undue 
reliance on a single evaluation measure disproportionately 
disadvantages institutions that constantly battle chronic under-funding 
and financial insecurity, while producing disproportionate numbers of 
qualified teachers of color who are important to the success of 
minority students and the Nation.
    It is important, however, that the criteria utilized to evaluate 
the effectiveness of teacher preparation programs must include not only 
a keen understanding of the pedagogy, but also reflect the pluralism 
and diversity of the Nation and the classrooms into which the teachers 
will go. The aim of any State program must include increasing diversity 
in the State teacher corps; increasing the percentage of elementary and 
secondary school classes taught by diverse teachers; and increasing the 
extent to which any new teachers will help to achieve pluralism among 
the ranks in the State, in districts and individual schools.
    The U.S. Congress and the business community can be of immense 
assistance in ensuring that under-resourced institutions are provided 
the necessary tools and resources to ensure that students are able to 
pass the PRAXIS and other exams. This can be done without increasing 
the level of public investment in this very important undertaking, but 
rather, by making a more efficient investment of limited public 
dollars, in those institutions with least resources. This more 
efficient investment of sparse funds would facilitate access to the 
resources necessary to enhance teacher preparation programs, such as 
technology.
    While technology is vital, human resources remain indispensable 
components of the learning process. Time and resources for faculty 
development to expand knowledge and skills are essential to the 
progress and success of both faculty and students.
    A key piece to ensuring that faculty development is successful in 
promoting student success is the need to forge effective business, and 
governmental partnerships in key areas necessary to maintain a 
competitive edge not only for faculty, but also for their students. 
Partnerships with research universities or other specialized 
institutions of higher learning are key to exposing faculty to cutting 
edge thinkers, techniques, curricula, equipment, etc. The world has 
witnessed an information and knowledge explosion in the last 40 years, 
making it increasingly difficult for under-resourced schools to 
graduate students who can effectively compete with other, better 
financed institutions. While information and knowledge management is 
critical to the sciences and information technologies, advances in 
theory or applications of existing fields of knowledge impact on the 
curriculum and pedagogies in the humanities, social sciences, and even 
fine and applied arts.
    Such partnerships will prevent faculty from becoming stale in their 
fields, and eliminate the risk of teaching a curriculum that no longer 
provides the essential skills and critical knowledge graduates need to 
enter and remain competitive in the workforce. Models for such 
partnerships may include faculty ``internships'' with corporations or 
organizations in their field of expertise; the ``visiting scholar'' 
model whereby selected industry leaders are attached to a particular 
colleges, formalized faculty/industry mentoring, etc. An immediate 
benefit of such partnerships is clearly a better educated teacher and 
college faculty corps.
    The business world strongly supports such partnerships (Sharing 
Responsibility: How Business Leaders and Higher Education Can Improve 
America's Schools, 2001, Business-Higher Education Forum) and has 
strongly urged further involvement of the two sectors in improving the 
K-16 pipeline.
    NAFEO has proposed and I offer for consideration by this august 
body, the joint public-private funding of Ten Collaborative Centers of 
Excellence for Minority Teacher Education on HBCU campuses and PBCU 
campuses throughout the country. These centers will play a critical 
role in increasing the production of highly qualified minority 
teachers.
    The centers will be provided resources sufficient to establish 
state-of-the-art teacher training facilities equipped with the latest 
technology, where curriculum will be reviewed and assessed, best 
practices and strategies identified and replicated, professional 
development and training for teachers provided. In addition, necessary 
and meaningful research will be conducted on critical issues related to 
the education of minority children/students that will not only be used 
to address such vexing issues as eliminating the education achievement 
gaps of minorities, but also to provide critical data essential to 
developing and shaping public policy more effectively at all levels of 
government. The centers will not merely benefit the institutions at 
which they are housed, but also provide resources for educational 
institutions proximately, regionally and nationally.
    The overall goals of these centers will be to develop more highly 
qualified minority teachers, improve the educational prospects of 
minority students, and further the goal of equal educational 
opportunity for all Americans.
    One approach that Medgar Evers College has developed is a model 
approach to enhancing the K-16 pipeline through an innovative program 
at its Middle College High School at Medgar Evers College (MCHS). We 
intend to improve the economic and academic outcomes of our primarily 
minority student population by rolling out a program that permits 
selected students the option of choosing a curriculum that will allow 
them to graduate with both a high school diploma and an Associate's 
degree. Graduates can then choose to enter the work force directly, or 
continue their academic career thus graduating by the age of 20 with a 
baccalaureate degree. We hope to enhance retention of high school 
students by reinforcing the value of what is increasingly becoming the 
entry level credential in the workforce, the Associate's degree. 
Furthermore, since many minority students are unable to continue on to 
graduate school due to both personal and familial economic 
responsibilities, the opportunity to earn a baccalaureate by 20 
decreases the amount of time spent outside the workforce while also 
reducing the burden of financial aid.

Global Education

    Among other things, the tragic events of September 11, 2001 
highlighted the critical need to cultivate more people of color to be 
involved in our global outreach and national security efforts. Current 
programmatic efforts have proven to be inadequate. Additional 
strategies must be employed and resources provided to strengthen and 
expand the capacities of HBCUs, PBCUs and other MSIs to participate 
more fully in this arena. Systematic and focused efforts to enhance the 
capacities of MSIs to increase the numbers of minority students 
knowledgeable about the world regions, foreign languages and 
international affairs to play crucial roles in advancing our Nation's 
diplomacy and security efforts are essential to America's continued 
safety and prosperity, and to industrial growth.
    I propose the idea of the establishment of a joint public-private 
partnership to establish ten area studies centers at Minority Serving 
Institutions. These centers would feature programs involving student 
and faculty exchanges, area studies, foreign languages studies, global 
cultures studies, global faiths, economies, and political systems 
studies. The goal would be to expand the cadre of people of color, well 
equipped to assist to shape the Nation's foreign policy priorities and 
secure our homeland.
    A critical element of achieving global education is enhanced 
technology capability, especially and minority-serving institutions and 
historically and currently under-resourced institutions.

Medgar Evers Government-Institution-Business Partnerships

    Medgar Evers College has identified a particular sector to 
effectively enhance employment opportunities for our students and local 
constituencies. In analyzing industry statistics and projections, the 
college has identified the Allied Health and Biotechnological field as 
a focus for developing career ladders for its student population. The 
School of Continuing Education and Community Programs and the School of 
Science Health and Technology have established agreements to develop 
career ladders locally. The college is working in collaboration with 
the State University of New York Downstate Medical Biotech Incubator to 
establish career tracks in biotechnology.
    The area of healthcare practitioners and associated technical 
occupations are projected to grow by over 18 percent between 2000 and 
2010, with support occupations growing over the same time period. 
Advancement in the direct patient care side of the industry is defined 
by an extensive system of professional certifications.
    Biotechnology is another sector with growth potential in New York 
City. However, it requires economic development support. The field is 
projected to be one of the Nation's fastest growing industries over the 
next few decades. New York City possesses all of the ingredients that 
have fueled the industry's growth--research facilities, top education 
institutions and renowned scientists, according to a 2002 Center for an 
Urban Future report. But many biotechnology firms in the city are 
concerned that a shortage of trained technical workers and real estate 
expenses will hamper growth. Biotech projects frequently require 
significant start up funding from public sources to pay for space and 
equipment. However, the likely possibility of the development of the 
Brooklyn Army Terminal into hundreds of thousands of square feet of 
biotechnology manufacturing space increases the probability of job 
growth in the near future. Biotech career opportunities in New York 
City are currently ``top-heavy,'' but experts project a growing need 
for front-line workers as research and development projects move toward 
commercialization and economic developments such as the Brooklyn Army 
Terminal come on line.
    Through its established relationships with professional unions, the 
health and hospitals sector in New York City, and its academic degree 
programs in The School of Science Health and Technology, Medgar Evers 
College has positioned itself to address the needs of these expanding 
employment sectors.
    I thank the committee for providing me the opportunity to 
participate in this important dialogue. The membership association of 
NAFEO and I stand ready to work with this committee as it continues to 
explore the important questions that have brought us to this hearing.

    The Chairman. Thank you.
    Mr. Sweeney.

     STATEMENT OF PATRICK SWEENEY, PRESIDENT AND CEO, ODIN 
                          TECHNOLOGIES

    Mr. Sweeney. Thank you very much, Senator, and thank you 
for inviting me here. To address the question of the various 
roles of those three entities in terms of helping future 
generations in keeping our country competitive.
    I think, in general, there are three components. The 
government needs to support the infrastructure. The 
corporations of the United States need to define the problem 
and figure out where there are shortcomings. And then, third, 
education needs to respond in kind to those two things.
    Just to give a little bit of my perspective on it, I sit on 
the board of Darden Graduate School of Business's Alumni Board 
down at UVA, but one of the more interesting things I do is I 
am the only North American board member for Trinity College in 
Dublin, not in Washington, DC. I tell my wife that I think they 
ask me onto those boards because of my largely unspectacular 
undergraduate career and they wanted to figure out what not to 
do-- [Laughter.]
    But in the case of Trinity over in Dublin, in Ireland in 
general, most people don't know the fact that Ireland is number 
two in the world in exportation of software. A country of just 
a few million people is second only to the United States in the 
exportation of software. That came about through an incredible 
partnership between corporations, government, and then the 
higher education system.
    It came about in Ireland because of need. There was a 20 
percent unemployment rate and Ireland clearly wasn't going to 
participate in the industrial revolution. They had to go from 
the agricultural revolution to the technology revolution, and 
they said, how can we do that?
    And government decided that they would support the 
infrastructure. They were the first country in the E.U. to put 
in something that was called an OC-48, a very large bandwidth 
pipe running around the country to give access to high 
bandwidth, because they knew if they were going to export 
technology and export their intellectual property, they would 
need the super highway to do that. So the government built 
that.
    The educational system came in behind that and put a focus 
on technology, put a focus on software, put a focus on driving 
innovation. Now Trinity is taking the tack that those things 
are becoming commodity items, so now we have to look and figure 
out what the next revolution is going to be, and I think there 
is an awful lot that we can learn about that in the United 
States as a much bigger country and say, look, let us not try 
and fight something that is going to happen in terms of things 
becoming commoditized or things being outsourced. Let us figure 
out what the next revolution is and be on the leading edge of 
that.
    The Chairman. Thank you.
    Mr. Craves.

   STATEMENT OF ROBERT CRAVES, FOUNDER, COSTCO CORPORATION, 
  CURRENTLY CEO AND PRESIDENT, WASHINGTON EDUCATION FOUNDATION

    Mr. Craves. Thank you. You are probably wondering why a guy 
that sells you mayonnaise in 50-gallon drums is talking about 
higher education--[Laughter.]--but the Governor of the State of 
Washington put me on more boards and commissions than I know 
what to do with, and even a retailer got it pretty soon that 
there is an alarming problem out there.
    Things that we learned, of course, is that the percentage 
of kids on free or reduced lunch is going up in our State. For 
example, in 1999, we were at 30 percent. Today, we are at over 
37 percent. We were looking around in a county that arguably is 
one of the more highly educated workforces in the country, King 
County, which houses, of course, Microsoft and many others, 
except that everybody that got good jobs was coming from 
someplace else.
    So my associates at Costco and I looked at this and said, 
what a waste of human capital. So what we did--this is just an 
example of what business can do, and appreciate we are low-tech 
or no-tech, so we kind of look at educating the whole person. 
There are about 60,000 graduates in the State of Washington 
every year. Thirty-thousand go to some kind of college. Thirty-
thousand don't. Our question was, of the 30,000 that don't, how 
many of them can earn a baccalaureate degree or better, and the 
numbers we came up with through the Department of Education, 
some independent research we did, and the Higher Education 
Coordinating Board of the State was about 6,000 on the low 
side. It was 6,000 to 12,000.
    So we used the 6,000, and so we put together, in 
cooperation with all our public and private universities and 
community colleges, this foundation which provides college 
scholarships and mentoring to low-income, high-potential 
students. The idea here is to try to put a national coalition 
of these foundations together to try to raise in this decade a 
billion dollars to help these poor kids go to school.
    We think higher education has certainly signed on. We have 
agreements with all the institutions to help these poor kids. 
The definition, obviously, of low-income is going up. Our 
public universities are increasing tuition by 7 percent a year. 
Our privates, in general, are 5 percent, but remember, their 
base is $28,000 instead of $5,000, so it is getting to be more 
and more costly. Trying to help kids with their part of the 
education finance is, at least to us, is incredibly important.
    As we go State to State to try to open up more education 
foundations, a couple of things that the government could do is 
certainly make money available to build the infrastructure of 
these foundations, which is minor, maybe a couple million 
dollars for start-up money.
    The other thing that you have going right now is the new 
piece of funding which would give private philanthropy a match 
of, I believe, 50 cents on the dollar. So if we raise a million 
dollars, let us say, for scholarships, that the Federal 
Government comes in with $500,000, which makes it infinitely 
easier for people like me to raise money when I go to the 
Starbucks of the world and the Microsofts of the world raising 
money, to say that we have a partner here.
    So I think that is what businesses can do. We have had the 
buy-in of perhaps 500 different companies. Lots of them are 
vendors, of course, who love to come to this party and give us 
money for this. But it is out there and people, when they can 
put a face on something and they can see the money going to 
help an individual, it is a significantly easier sale than just 
saying, give me money for higher education. Thank you.
    [The prepared statement of Mr. Craves follows:]

                    Prepared Statement of Bob Craves

    Every year, thousands of young people across the country dream of 
attending college, but they don't go because they don't have the means 
to pay for it.
    We think of them as the children left behind; the students that 
aren't adequately served or supported by existing government and 
scholarship programs.
    We felt we could do better, which is why we created the Washington 
Education Foundation in 2000. Working together with several private 
organizations and companies--including the Bill and Melinda Gates 
Foundation and the Costco Warehouse Corporation--we've been able to 
provide scholarships and mentoring to thousands of low-income, high-
potential students in Washington State.
    None of this would have been possible without the support and 
active participation of several leading figures in our State 
government, including the current and prior Governor, the 
Superintendent of Public Instruction, and the Higher Education 
Coordinating Board, a citizen board responsible for overseeing various 
aspects of State public policy including the distribution of 
scholarship funds to both public and private institutions.
    Education beyond high school is increasingly essential as a way out 
of joblessness and poverty. Higher education increases productivity and 
creates a well-educated citizenry that can contribute to the vitality 
of our Nation.
    Yet for many children who live in low-income homes, postsecondary 
education is simply not considered possible. And in fact, the disparity 
in educational attainment between young adults with low incomes versus 
kids from high-income families is large, pervasive, persistent, and the 
gap is growing larger every year.
    It's such a terrible waste. Because with a relatively small level 
of support--partly financial, partly in guidance and mentoring--most of 
these students could succeed, and ultimately contribute their brains, 
their talents, and their energies to society.
    This Spring, we at the Washington Education Foundation are 
celebrating our first full graduating class of students who have been 
recipients of our programs. We have a unique and pro-active approach to 
our scholarship programs--we don't just throw money at the students and 
then walk away. The Achievers Scholarships, for example, are granted to 
students at the end of their Junior Year in High School. That's really 
just the beginning of the process--from then, our statewide network of 
more than a thousand volunteer Hometown Mentors goes to work helping 
students through the complicated process of selecting and applying for 
colleges, which is essential since many of these students represent the 
first generation of their families to attend college, and can't get 
that sort of advice at home. Support for each student continues once he 
or she begins attending university, through a network of college 
mentors that help to assist and monitor the students through this 
often-difficult transitional period.
    I describe this because we've been fortunate in Washington State to 
forge a public/private partnership with our State government. Through 
the generosity of our benefactors and volunteers, we've been able to 
raise nearly $150 million in scholarship funds from private 
foundations, companies, and individuals. The State has supported our 
efforts through the commitment of resources to manage, oversee and 
ensure the success of the Mentoring portion of our program. I like to 
point out that the State is getting a great bargain--its financial 
contribution is less than 10 percent a year of what we grant in 
scholarships, but that contribution allows us to focus our resources on 
the students themselves. By working in concert, the contribution of the 
State is multiplied 10 times over, meaning that we all win.
    That's essential to accomplishing what the Roundtable discussion 
will be focusing on--strengthening our workforce to meet the needs of 
industry and our country. I've met many of our scholarship recipients 
personally. I can assure you they have the brains, the grades, and 
certainly the drive that demonstrates they can succeed. All they need 
are the financial and other resources to ensure they get on the track 
to success.
    To that end, there are two ways I believe the Federal Government 
can support the efforts of foundations such as ours in delivering on 
the current and future needs of education across the country:
    <bullet> A matching program that encourages private philanthropy by 
providing dollar-for-dollar matches of donations made for university 
scholarships. Through our efforts, we've raised $150 million in the 
State of Washington--if we could double those resources, we could 
support thousands of additional students and allow them to reach their 
full potentials.
    <bullet> As other States look to initiate their own education 
foundations built on our model, it would be a great boon if the Federal 
Government could support those efforts through making an investment in 
the start-up costs. Thanks to the generosity of the Gates Foundation 
and Costco, we were able to fast-track our efforts in the State of 
Washington and get our programs going in months instead of years. But 
not every State will be so fortunate as we were to have such 
outstanding benefactors right from the start; and in my view it would 
be better for their fundraising efforts to be focused on developing 
scholarships instead of building infrastructure. A small investment in 
start-up costs by the Federal Government would reap huge rewards later.
    Thanks for the opportunity to participate in today's Roundtable; 
and thanks also for bringing these critical educational issues to the 
forefront.

    The Chairman. Thank you.
    Dr. Nolte.

      STATEMENT OF WALTER NOLTE, PRESIDENT, CASPER COLLEGE

    Mr. Nolte. Thank you. Thank you, Senator Enzi. I will have 
to admit that I bought one of Mr. Craves' 50-gallon jars of 
mayonnaise when I left Washington in 1993. I still have it. 
[Laughter.]
    I want to follow up a little bit on what Mr. Mullen said. I 
agree that one of our challenges is how to keep young people 
interested in high-skill, high-wage jobs. How do we keep young 
people in school, I think is one of our challenges.
    Wyoming is in an interesting position right now where 
fiscally, the State is very strong. We have developed--you 
asked the question, how can government be involved. Recently, 
the State of Wyoming passed a $400 million scholarship 
endowment for high school graduates, and basically when that 
ramps up over the next 5 or 6 years and the endowment is full, 
any high school student with any motivation at all should be 
able to go to college tuition and fee free. We might be unique 
in the Nation in that respect, but it is a tremendous resource 
for our high school students and we are hoping that this will 
be a powerful incentive for parents to encourage their young 
people to continue in school and to achieve the standards 
necessary to receive this scholarship.
    One of the other things that we are doing, again, it is a 
partnership with government, with our school district, and with 
the local private sector, is that we are looking at the 
development of a skill center located either on our campus or 
near our campus, a joint facility run by the high school 
district and the college with input from the private sector, a 
modular facility that we can change instantly to meet private 
sector and business and industry needs with an open entry, open 
exit curricula. We are hoping that this facility will address 
the high school drop-out problem.
    We will react to the programs that we need very quickly 
when this facility is developed over the next few years based 
on private sector input. We are hoping that the private sector 
will help us equip this facility because those are the high-
cost items for any college, community college, or high school 
district in running a program.
    We are also hoping to jump-start this with an application 
for President Bush's Community College Job Training. We really 
think that this is an adaptable program that we can move 
quickly on what private sector employers are telling us their 
immediate needs are.
    The challenge will be to get young people involved in this, 
to keep them involved. And again, I agree with Mr. Mullen that 
that is something that has to start at an early age in the 
education career.
    The Chairman. Thank you.
    Dr. Reed.

    STATEMENT OF CHARLES REED, CHANCELLOR, CALIFORNIA STATE 
                           UNIVERSITY

    Mr. Reed. The California State University has 420,000 
students, probably about the same number of people that live in 
Wyoming. [Laughter.]
    Senator Enzi, thank you for convening this very important 
meeting. I want to take a little different approach and be 
maybe a little more specific. We will be graduating 88,000 
students this spring. We began last week and we will run our 
commencements through the second week in June. It is very 
important, of those 420,000 students, approximately 54 percent 
of them are students of color. We are the largest feeder of the 
workforce in California, which is the seventh-largest economy 
in the world.
    Having said that, my colleagues here have all talked about 
this pipeline and they have talked about partnerships. If we 
all say those words, we all need to live those words, and that 
partnership and those pipelines, as Senator Kennedy said, start 
in K through 12, and that is the preparation of students in K 
through 12 for the workforce and for college, and college 
awareness is a huge, huge issue among minority students.
    I can say this. College is no longer a luxury in our 
society. It is a necessity. So, therefore, I have a suggestion. 
I think yesterday you passed S. 1021, which is the Workforce 
Reinvestment Act, which included the President's Community 
College Initiative. I would like to suggest that you add to 
that bill the possibility that higher education, 4-year 
institutions could join in a partnership with community 
colleges. The community colleges can be the direct-funded 
organization, but require that they have this partnership with 
K through 12 and with higher education, 4-year institutions.
    In California, the California State University accepts 7 of 
every 10 students from the community colleges, and this is a 
continuum. So if that bill would allow us at the 4-year level 
to focus on workforce development with our partners, the 
community colleges, and their partners, K through 12, I think 
we are going to be so much better off.
    One of the things that I have tried to do is to form what 
we call Chancellors' Advisory Commissions of business and 
industry in California. For instance, the agriculture industry, 
the largest industry in the United States, in California. I 
have about 20 of the largest agricultural producers in 
California advise me twice a year. What do they say they need? 
Students who can communicate, both orally and in writing. Two, 
students who can work together in teams across all their 
businesses. Three, students who understand technology. Now, 
they also come back and say, chancellor, you need to work more 
and harder with your community colleges, and so I would like to 
see that added to S. 1021.
    The Chairman. Thank you. We are talking about the Higher 
Education Act primarily today, but we are trying to make this 
all seamless with the Workforce Investment Act and there is a 
provision in there, we might not have it clear enough, that 
colleges, 4-year institutions, can work through the community 
colleges and a partnership as business can work through, but we 
may not have that clear enough and it is an excellent 
suggestion.
    [The prepared statement of Mr. Reed follows:]

                 Prepared Statement of Charles B. Reed

    Chairman Enzi, Ranking Member Kennedy, and members of the 
committee, thank you for inviting me to participate in this important 
discussion about the preparation of our Nation's workforce. Few, if 
any, university systems can match the scope of the California State 
University (CSU) system. Nationally, about 1.25 million bachelor's 
degrees are awarded annually in the United States by about 2,000 
colleges and universities with a combined student population in excess 
of 15 million. As the Nation's largest 4-year university system, the 
California State University's 23 campuses award more than 4.5 percent 
of those bachelor's degrees, giving the CSU a significant national 
presence. In California, a State boasting 372 public and private 
institutions, the CSU plays an even stronger role. It serves nearly 
400,000 students, twice as many as the University of California and 
more than all private colleges and universities in California combined. 
It accounts for almost half of the bachelor degrees granted in 
California, and a third of the master's degrees.
    And those bachelor degrees are not narrowly focused. Because of the 
breadth of its offerings, which includes more than 1,800 degree 
programs, the California State University serves as the essential 
engine of California's skill-dependent economy. Its role in workforce 
preparation is unrivaled. It provides the majority of the State's new 
teachers, 40 percent of its engineering and nearly half of its business 
graduates, and more graduates in agriculture, communications, health, 
and public administration than all other California colleges and 
universities combined. Our focus is on quality, access, and 
affordability. We are proud to say that the CSU is working for 
California.
    In order for our country to remain globally competitive, we must 
build strong and effective partnerships between education, business, 
and the government. No matter which sector we represent, our work is 
essentially interconnected. The strength of our country's educational 
system relies on the participation of businesses and government, and in 
turn, a strong educational system helps us build successful businesses 
and a strong economy. It is all part of a continuum in which we must be 
active partners.

Point 1: Our Efforts Must Begin With K-12

    For as long as I have been at the California State University, I 
have made it a priority to work with our K-12 schools. The vast 
majority of our students come from California's public schools, and the 
more K-12 and higher education work together, the better prepared our 
students will be for success in college.

Point 2: College Awareness and Preparation Are Key

    College is no longer a luxury in our society, it is a necessity. We 
know that a person with a bachelor's degree will earn nearly twice as 
much over a lifetime as a high school graduate. Before I came to 
California, it had never occurred to me that many young people didn't 
know how to prepare for college. But our population is rapidly growing 
and shifting. California is now a majority-minority State. Many of our 
students come from homes where the parents are not from this country 
and do not speak English. Plus, many of our students are the first in 
their families to attend college. These students often need assistance 
in making sure they get the right classes in high school, filling out 
applications, and filling out financial aid forms.
    Also, even when many of our students arrive at college, they still 
face a need for remedial education. Remedial courses are expensive for 
students, costing them added time to their degree, additional tuition 
payments, and often increased student indebtedness. Remedial education 
is also costly to the institution, demanding scarce resources, and 
ultimately reducing seats available to the next class of students at a 
time when enrollment demand is outpacing the capacity of our colleges 
and universities. The CSU is working with California's schools to 
reduce the need for remediation at the college level. Our efforts to 
address this issue include:
    Early Assessment Program: The CSU has worked with the California 
Department of Education and State Board of Education to create this 
testing program, which is embedded in the 11th grade California 
Standards Tests. It is designed to give students an ``early signal'' 
about their level of college readiness. Once they take this test, 
students have the opportunity to do any additional preparation that 
they need to do for college while in the 12th grade. Our early 
assessment focuses on mathematics and English, two areas that are 
essential to preparing students to participate in a highly skilled 
workforce.
    GEAR UP and TRIO: The GEAR UP and TRIO programs are essential to 
our efforts to prepare disadvantaged students for a college education, 
and indeed to let them know that college is a possibility for them. The 
California State University participates in more GEAR UP programs than 
any other entity in the Nation, and I urge you to strengthen and 
maintain these two essential programs.
    Poster: We created a ``How to Get to College'' poster to distribute 
to every middle school and high school in the State. This poster spells 
out exactly what courses and tests a student needs to take to prepare 
for the California State University or the University of California. 
The demand for these posters has been overwhelming. We now distribute 
posters all around the State in English, Spanish, Chinese, Vietnamese, 
and Korean. Boeing has been a strong supporter and lead partner in 
underwriting this effort.

Point 3: All Americans Must Have an Opportunity to Participate and 
                    Contribute

    At the CSU, approximately 54 percent of our students are from 
minority populations and 40 percent come from households where English 
is not the main language spoken. In an increasingly diverse society, it 
is essential to ensure that all sectors of that society are prepared to 
participate. Unfortunately, there is still an achievement gap across 
all levels of higher education. The reality is that we need to build a 
``pipeline'' for under-represented students from high school to 
graduate school to business. To do this, we must increase the number of 
role models, including teachers, who can reach out to diverse 
communities. We must also improve on the graduate opportunities 
available to under-represented populations. For example, adding a 
graduate component to Title V of the Higher Education Act (HEA) would 
be a step in the right direction to greater inclusion of American 
Latinos.
    Ensuring that all young people have a chance to participate is a 
critical component in building a highly skilled workforce. American 
business needs individuals who can design, produce, and ultimately 
market products to every community in America and increase the demand 
for America's products throughout the world.

Point 4: We Need Partnerships With Business to Prepare Students for 
                    Workforce Success

    The fact that there is a gap between what students are learning and 
what future employers need from our graduates tells us that higher 
education needs to pay closer attention to workforce preparation. Our 
credibility with our business and community partners ultimately depends 
on our ability to prepare students who are equipped with the tools for 
future success.
    According to the public policy and research firm Public Works, 
three key attributes necessary for success in the 21st century 
workforce include the ability to think critically and creatively, the 
ability to relate collaboratively, and the ability to adapt and 
transact in a global economy. If we give students the opportunity to 
work in teams, challenge them to work across divisions, and offer them 
more exposure to real-life situations, they will be better prepared for 
what today's jobs require of them.
    Several of our most successful recent graduates have told us that 
the key to their university experiences was working with professors who 
knew about workforce needs and having a flexible curriculum that 
allowed them to get maximum exposure to the latest technology, 
equipment, and techniques.
    There are plenty of opportunities for us to work closely with 
business partners in our community, including the sponsoring of 
scholarships, internships, and job placement opportunities. 
Additionally, several of our campuses have undertaken innovative joint 
ventures that benefit all parties involved. For example, Cal Poly 
Pomona is launching a joint public/private partnership known as 
Innovation Village. The new Red Cross regional headquarters that just 
opened at Innovation Village will be the largest blood-processing 
facility in the country. The university offers the Red Cross a 
strategic location and access to vast university resources. In return, 
having that facility offers the university prime educational and 
research opportunities.

Point 5: We Must Continue to Inform our Community Partners About the 
                    Impact/Importance of Higher Education

    The California State University recently did a comprehensive study 
of the impact of the university and its 23 campuses. The study found 
that CSU-related expenditures create $13.6 billion in economic 
activity, support 207,000 jobs, and generate $760 million in State 
taxes. We have been conducting events all across the State that 
highlight the CSU's role in several key industries to industry and 
community audiences. By raising awareness about the role of the 
university, we hope to build stronger partnerships that will allow us 
to make new inroads into these industries--and to hear more about how 
we can better prepare students for the workforce.
    Thank you again for this opportunity to present the views of the 
California State University. I hope you will continue to view our 
system as a resource as you work on the reauthorization of the Higher 
Education Act and other matters related to workforce preparation.

    The Chairman. Thank you.
    Dr. Palmer-Noone.

   STATEMENT OF LAURA PALMER-NOONE, PRESIDENT, UNIVERSITY OF 
                            PHOENIX

    Ms. Palmer-Noone. Thank you, Chairman, for convening this 
today and for inviting me to participate.
    I am the president of the University of Phoenix, a for-
profit regionally accredited institution with over 233,000 
students, not quite as large as the Cal State system, but watch 
out, Dr. Reed. We are on our way. [Laughter.]
    The average age of our students right now, Senator, is a 
little over 34 years of age, and about 41 percent of our 
students identify themselves from being from racial and ethnic 
minorities.
    My point in giving you that background is that I think it 
would be a mistake for us to limit our consideration today to 
what we refer to as young people, the 18- to 22-year-olds. We 
need to assist in the workforce development of the people in 
the workforce now. We simply don't have the luxury of waiting 4 
or 5 or 6 years for some of these things to take root.
    With regard to your question about increasing the 
partnership between universities and business, I think that 
higher education has been somewhat remiss. We need but only to 
ask. If we ask those companies what it is that they need, as 
Dr. Reed has indicated, they tell us some very interesting 
things.
    We conducted some research in December of this past year. 
About 300 national employers were asked, what is it that you 
are looking for? What are the skills that are missing? What do 
you promote on? Why do you hire people? And they told us, they 
want communications skills, they want critical thinking, they 
want collaboration and teamwork, they want adaptability, a 
commitment to lifelong learning, a commitment to a willingness 
to change with the organization. All of those things ranked 
ahead of the technical skills of the positions.
    What is government's role, then? I think it is that we have 
to have some help in increasing access. The reason that 
students are not going to school now has nothing to do with 
geography. We have done a wonderful job in higher education, 
putting a college on every corner or putting it onto the 
Internet or some way for people to go. The barrier to their 
being part of the higher education scene is money. They need to 
have funding. They need to have a way to get access.
    If I had a recommendation for the rallying cry for the 
Higher Education Reauthorization, it should be that we should 
change ``No Child Left Behind'' to ``No One Left Behind.'' 
Thank you.
    The Chairman. Thank you very much.
    We will need to move on to a second question here. Again, 
we have to be through by 11:30 a.m., under some Senate rules 
that are being invoked today. And this has been alluded to by 
many of you while you have been talking, but I really want to 
thank you for all of the comments that you have made so far. I 
have got a pile of notes here on some additional follow-up 
questions that I am going to have to do with each of you, 
because I think you are really getting to the heart of some of 
the things that we need to study and get answers for as we do 
the Higher Education Act.
    This pipeline that we have referred to, there is a huge 
concern in this country, and we need to have it, we have always 
been the leaders in math and science and health and technology 
and that has really made the economy what it is. We lead the 
rest of the world. We develop a product. Eventually, that 
becomes kind of a standard product and they make it everywhere 
in the world. The reason that we are able to be successful is 
we go ahead and we develop new products. We have been staying 
ahead of the curve so far, but I am a little discouraged with 
the number of kids that are going into math and science and 
health and technology and the ones that are going to be the 
inventors of the future that will keep that technology going.
    So how do we encourage students to prepare for and enter 
those high-skill fields? What can we be doing to get the kids 
excited, as was mentioned? How do we do that? Ideas?
    Dr. Jackson, I think you had your card up first.
    Mr. Jackson. We have many programs that are federally 
funded that are doing a terrific job. GEAR UP is doing a 
tremendous job in working with young people to get them to, 
first to understand that college is possible, second, that 
these professions are available to and for them, but also to 
give them the kinds of skills that they need so that they don't 
feel that the science, health, and technology professions are 
not for them.
    But I want to go back. We had in 1960, the Sputnik era, 
National Defense, Science Defense Act. I was one of those who 
went to college, Howard University, majored in science, because 
there were resources available for me. If we don't increase the 
number of faculty or teaching in our K through 12 system, we 
have too many people teaching out of their discipline in math 
and science. How can you encourage young people to love science 
and math when you have people who are not qualified and just 
simply doing it? The modeling that it seems to me is necessary 
and the love of the profession, you have to have people who are 
qualified. We can't produce enough of those.
    We are talking about very high-cost programs, and somehow 
or another, if you are asking what is the role of government, 
what is the role of the Federal Government, you have the model. 
It worked. Why not go back and embrace that model again, or at 
least examine it for those things that were successful and then 
to try to fund those programs.
    I think we have a lot of opportunity. We have the models. 
We can go back to them. They are successful. They were 
successful. And you are seeing the fruit of that or proof of 
that with a lot of people who are now like me, perhaps could 
not have gone to college were it not for that act.
    The Chairman. Thank you.
    Dr. Reed.
    Mr. Reed. Senator Enzi, I think that--I support what Dr. 
Jackson said about the National Defense Education Act. He and I 
are probably about the same age, so there are a lot of good 
ideas there that I would commend you and your staff to look at, 
especially in preparing math and science and foreign language 
teachers for the future.
    Mr. Jackson. Yes.
    Mr. Reed. Let me say this, that awareness and understanding 
by parents and students of what it takes to join the workforce 
and to be able to go to college is really important. Senator 
Isakson was talking about students don't look like we did when 
we went to college. Eighty percent of the students in 
California State University work, many full-time. Forty percent 
of them come from homes where English is not the first language 
spoken.
    One of the things that I learned just by walking around is 
students and some of their teachers and their parents have no 
idea what it takes to go into the workforce or go to college. 
One of the things that we did is we printed a half-million 
posters that we send out every year in Spanish, English, 
Korean, Chinese, Vietnamese, so that these families can be much 
more informed of the importance of taking algebra I and algebra 
II by their junior year in high school.
    The California State University, and I think the Federal 
Government could help all of us, could incentivize us to push 
down into K through 12 the expectations. We are now offering an 
11th grade exam--I am paying for that--in all of the junior 
year, 11th grades in California which just simply says, are you 
prepared for the workforce? Are you prepared to go to college? 
And, frankly, about 80 percent of the students are not 
prepared.
    But what we are asking, Louis Caldera and I served on a 
committee and one of the things that we found out is the 12th 
grade in America is the biggest wasteland. Nothing happens in 
the 12th grade. Kids go out and get jobs about 11 o'clock in 
the morning at McDonald's so they can buy a car, but they are 
not going to school. They are not taking math, real math. They 
are taking--sometimes it will be math, maybe it will be math, 
never will it be math. I saw a high school that had 34 math 
discipline courses. There is not that much math out there in 
the world. There are only about five or six maths. So if we can 
focus on algebra, geometry, trigonometry, and calculus, we 
would do these kids a great favor.
    We are trying to push our expectations, our workforce 
expectations, down into the public schools.
    The Chairman. Thank you.
    Mr. Mullen.
    Mr. Mullen. I will pick up on a couple of things; one I 
said before and agree with Dr. Jackson. You have got to hook 
these kids early and get them excited about education. I am 
particularly focused on the math and science and the 
engineering, and the reason for that are a couple-fold. One, 
that is what drives the economy and the technology and the new 
jobs. But the other is just a simple observation. I have rarely 
seen somebody go through training in liberal arts or business 
and then follow that on with a science education. I have seen 
the reverse thousands of times. So if you do not get them 
involved early they just simply do not get the skills and they 
get more and more distant.
    So I think we have to have better teachers, so teachers 
that are highly qualified to teach these subjects down in the 
grade school levels. I think the government industry can help a 
lot in helping shape curricula. So what is important and also 
making it relevant and exciting for the students, and exposure.
    So one of the keys that we had around this community lab 
was the excitement and the exposure. Show them what the jobs 
are. In the minority community--and I sit on a board called the 
Biosciences Career Program that is completely aimed at bringing 
minority kids into these group programs. Most minority kids, 
the only person they ever saw in health sciences was a 
physician. They do not know what all these other jobs are so 
there is nothing to get excited about.
    So part of that is exposure. That is a place where both the 
industry is happy to play a role because we all have kids and 
students in school too. And I think the government can play a 
role in the curriculum shaping as well as the access to some 
resources.
    Thank you
    The Chairman. Thank you.
    Mr. Caldera.
    Mr. Caldera. Thank you, Senator. Three bullet points. The 
first one has to do with the emphasis on K-12 and on teachers 
who are well-prepared and subject matter experts in science and 
math. A great science teacher will turn you on to science. One 
who does not understand science or math is going to turn you 
off to math or science, perhaps permanently.
    The second bullet point is the importance of involving 
undergraduates in research. There is nothing like the antidote 
to the large lecture class, to work in a small lab with a 
scientist, with a professor, as part of a small team. The same 
is true with hands-on involvement, whether it is in a lab or 
whether it is at a company near you, to turn you on and to help 
you understand the real-world applications, to let you know 
what scientists and researchers are doing and how their 
breakthroughs have real-world applications. It has a huge 
impact on career field selection, decisions to go on to get 
master's and Ph.D.'s, just commitment to education, if we can 
find ways to support more undergraduate involvement in 
research.
    The third, and that is particularly important to 
institutions like mine, is support for a graduate program for 
Hispanic-serving institutions. We have done a pretty good job 
in this country of increasing the minority enrollment at the 
baccalaureate level, but the message for a lot of those kids, 
especially those who came from families where no one had ever 
graduated from college, was that the goal should be graduating 
from college. We have got to raise that. The goal should be 
getting a Ph.D.
    So creating more opportunities for some of those students 
to not limit themselves to the baccalaureate level but to be 
thinking about the master's and Ph.D. level is very important, 
and an HSI graduate program could help support that.
    The Chairman. Ms. McGuire.
    Ms. McGuire. Thank you. I was struck by the passion and 
clarity with which Dr. Reed described the problem. My heart was 
leaping with resonance at the description.
    I think those of us who work in urban centers in 
particular, and urban universities--and I do not mean to 
exclude others but being a university in the District of 
Columbia--I understand the catastrophe that is called senior 
high school. Senior high schools just do not work in this city 
and they probably do not work in a lot of cities. We see 
children coming into college who absolutely are so unprepared 
they do not know what calculus is. They have never heard the 
word trigonometry before. They do not even have the vocabulary 
to understand what the course schedule titles are in order to 
know what they need.
    Now I happen to be one of those college presidents who is 
not embarrassed or ashamed to say that my institution does a 
heck of a lot of remediation. There is nothing wrong with that 
word because there is nothing wrong with the brains of these 
students. They simply have not had the platform prepared for 
them to be as successful at the gate as other students from 
better high schools. I believe absolutely, passionately, that 
every student can learn that instead of saying no child left 
behind, let us say, every student can and will learn and be 
successful.
    One of the things I have come to understand is that those 
of us who are colleges and universities, particularly in the 
urban centers again, could and will and are willing to create 
that bridge from whatever grade school level, maybe it is 2nd 
grade, maybe it is 1st, maybe it is pre-K, the student needs to 
get into to become successful. I think the traditional notions 
of Federal financial aid and institutional support need to have 
a whole new layer put on them specifically for the urban 
student who has been under-prepared. Traditional financial aid 
is great but it does not necessarily help all the students I 
have who need to have 13th and 14th grade before they can 
become college freshmen. We call it college freshmen right now 
because we do not know what else to do with them.
    Our students at Trinity, on average, are completing in 7, 
8, and 9 years. They are not even completing in 6 years any 
more. So we look at completion rates and everybody says, oh, 
that is terrible. It is not terrible. They are completing, for 
heaven's sake. But we are having to repeat 9th, 10th, and 11th 
grade in order to get them to finish and be successful at the 
other end.
    Now this relates to math and science in particular because 
the math, science skills are the particular problem that we 
see. The quantitative skills are just simply nonexistent. It is 
not that they are poor. They are nonexistent, and it is not the 
child's fault. It is in fact all of the other issues. We cannot 
wait for K-12 to reform itself in order to solve this problem 
because then you will have no scientists or mathematicians for 
many generations to come.
    I would challenge Congress to think, and the Senate and 
this committee in particular, to think of how we could work 
with you to create a very new program that would incentivize 
those colleges and universities who are willing to work with 
you, with the Department of Education, and with industry in the 
creation of some new model programs that would be, frankly, a 
little less complicated than GEAR UP, more focused on the 
senior high school level, and that would--in fact some of the 
things I would like to see would be 12 months of education. I 
do not think the students need to take off the summertime, but 
they need to be supported in the jobs that they would otherwise 
be taking in the summertime. They need to have their stipends 
replaced.
    We are willing to do summer camps that remediate in math 
and science in the summertime, but there is no support for the 
children and we do not just have money dropping from the sky to 
do that. We need that kind of support.
    We need the kind of support that would say that teachers 
who want to participate and want to be retrained can indeed be 
retrained to teach students who have no parents at home to hear 
their homework and to work with them on homework. There is an 
assumption that parents have to do it, and let us face it, that 
is another piece of the problem. But we are not going to fix 
that problem anytime soon either.
    Now there are some new models. They are called charter 
schools, they are called different kinds of private schools. 
But those models are not big enough and there is not enough of 
them to be able to help bridge this problem. I submit that 
colleges and universities working with industries and with the 
right kind of support would be willing to create some of those 
new models with the focus that you are asking for.
    Senator Kennedy. Let me ask you, is this not what the 
National Science Foundation is supposed to be doing? Is that 
not what we support the National Science Foundation to try to 
do? Are we supposed to have a new program? We have tasked them 
to try to develop this type of program I would be interested, 
do you hear from them? Are they involved? Or what is your 
evaluation?
    I apologize for having to be away for a while, but that is 
one of the challenges the National Science Foundation is 
supposed to be working on in this area, trying to develop these 
kinds of programs and then present them to us after they have 
been tried and tested and what is working and what is not, 
rather than starting from scratch. What is your sense? Have you 
tried to get them to do this and have they turned it down, or 
what is your own experience?
    Ms. McGuire. We certainly have had support from the 
National Science Foundation for the upper level collegiate 
programs, and I think there are excellent for the upper level 
collegiate programs. But the problem in getting students into 
the pipeline out of K-12, particularly in areas where students 
have been underserved by their high schools to begin with, is 
that there really is no program that really focuses 
specifically on this. NSF does a great job at the upper 
division levels, or for highly talented high school students. 
But the highly talented high school students are few in number 
in the math and science fields. There needs to be a different 
kind of program for the students who need to, at age 16, 17, 18 
learn what algebra is, for example.
    The Chairman. Thank you.
    Mr. Hoff.
    Mr. Hoff. Thank you, Senator. I just wanted to add a couple 
thoughts.
    I completely agree with Mr. Mullen and Mr. Craves that most 
businesses would be delighted to participate actively in 
thinking about how to pull the pipeline of people through, 
especially in areas such as math and science, and how to be 
able to identify the opportunity that would actually excite 
kids to do so. I might suggest, and we can submit things for 
the record, that you look at some of the recommendations that 
are coming out of something called the Business Higher 
Education Forum. This is a number of different businesses. We 
are just one of them participating in it.
    The basic idea is to organize by State a business with 
universities, taking a look at--with the State government 
sponsor, not the Federal Government, the whole pipeline from K-
16, all the way through. What do we need to do? How do we 
identify the jobs? How do we look at some of the curricula that 
needs to be shaped? What role could business play in this? How 
do we look at what faculty we need? What curricula needs to be 
set up? What kind of assessments and so forth? So we will 
submit for the record what the Business Higher Education Forum 
is recommending, and I would encourage you to take a look at 
it.
    Then the other thought I had that you might want to look at 
is the question of how you might be able to take advantage of 
some emerging technologies--I am sure Dr. Palmer-Noone would 
agree with this--about how to make learning more exciting, and 
how to also make it something where not only people who are in 
school, but also people who are out in the workforce can 
actually learn on an active basis. I think a lot of experience 
that we all have is that the way in which math and science is 
taught is the same way it has been taught for a long time. It 
is boring for an awful lot of kids. It does not allow kids to 
get over the psychological hurdle of having confidence that 
they can actually participate in this kind of learning.
    I think there are opportunities to take advantage of where 
kids are. They are playing all these games. You could turn that 
into education. If there is a way in which the Federal 
Government can sponsor a means of advancing the way that we 
enable kids to learn, I think that that would be something else 
that you might want to look at.
    The Chairman. Thank you.
    Mr. Craves.
    Mr. Craves. Thank you. I just wanted to tell you something 
that we are shopping around at the moment. Recently I brought a 
fellow named Dr. Warren Buck on staff of the foundation who 
happens to be an African-American Ph.D. nuclear physicist and 
was the chancellor of the University of Washington, Bothell, 
one of the branch campuses. His function will be to go into the 
middle schools, along with a team of recently graduated 
African-American and Hispanic men, to promote kids going into 
the sciences.
    Our idea is to actually give a scholarship to a 7th grader 
for college. We have a guaranteed tuition program in the State 
of Washington and for $35,000 right now you can buy 5 years at 
the University of Washington. So our idea is we would buy one 
of those for these kids and get them motivated to do well in 
math and science in the high schools.
    We think the high schools are too late. If you try to play 
catch-up in math and science and you are a junior in high 
school, forget it. So you have to get down into the 7th grade. 
So maybe this is a GEAR UP attached to the carrot, which is the 
scholarship, and we are looking at maybe doing a thousand kids 
a year. If they make it into college, and if they can declare, 
or at least through curriculum are in math and science, then 
they would get this scholarship.
    So we think there is something here to--I know everybody 
wants everything fixed tomorrow morning, but perhaps we have to 
begin to invest deeper down into the system.
    The Chairman. Thank you.
    Mr. Sweeney.
    Mr. Sweeney. Thank you, Senator. I guess as an entrepreneur 
I probably tend to look at things, the glass is not half full, 
it is overflowing. So when you bring up an issue of, there is 
concern over the declining participation in math and sciences, 
I would not necessarily be worried about that as much as I 
would be worried about what we are trying to do in response to 
that decline. We talked a little bit when I had spoken about 
Ireland earlier, we talked a little bit about the outsourcing 
and some of the initiatives. I think students are not excited 
about math and sciences because it is very routine, and as Mr. 
Hoff pointed out, it is something that we are not teaching well 
and we are not teaching any differently than when most of us 
went to school.
    What I think is probably the bigger issue is we need a 
curriculum, at least from a hire perspective, that is not 
necessarily focused on the technology age, which is now 
arguably in its maturity, but it is rather focused on the 
innovation age that we are starting to get into now that I 
alluded to earlier in terms of what we are doing over at 
Trinity College in Dublin. Things like the right brain thinking 
ideas, art, design, sciences. It works very well in high 
school. There is a private high school here in Washington that 
is almost all African-American that has a 90 percent graduation 
rate. It is unheard of. And it is a feeder high school for an 
architectural program, so it is very design focused.
    I grew up in an unusual environment. My dad never went to 
university but he was one of the first people that Ross Perot 
hired in Electronic Data Systems up in Boston. I used to crawl 
around the data center as a kid. My mom was a bank teller so we 
would go in on Saturdays, and I had a chance to understand this 
really interesting technology of computers. What my dad taught 
me was how to communicate that technology. I think Dr. Palmer-
Noone said one of the things businesses are needing now more 
than anything else is the ability to have people who can 
communicate. We are not asking for math and science folks. We 
are not asking for code writers.
    If you look at how we do things now, if you look at why 
things are outsourced to India and China, it is because there 
is no innovation left in those skills. They have become 
routine. In fact we have a program now that can write 300 lines 
of code a second. Code writing is no longer a competitive 
advantage for anyone. It is a commodity. It is no different 
than sewing buttons on a jacket.
    So what we have to look at is, how are we going to set an 
innovation age? How are we going to create a curriculum that is 
going to exploit the coming innovation age?
    I am blessed to be in an industry now that arguably is 
going to be as large or have as big an impact as the Internet. 
It is a technology called radio frequency identification. It is 
really the art of putting little computer chips on everything 
from supply-chain management to asset to passports. It started 
out--it is a nice proxy for the evolution in technology. What 
happened was, 30 years ago a guy would walk around a 
distribution center with a clipboard and a pen and he would 
count boxes and he would write down what he counted. So he 
would count and then he would capture the data.
    Someone created a technology called a bar code. That 
automated the data capture part, but he still had to count. He 
still had to go and wand each box and read the bar code. Now 
RFID has come along and made that task go away through 
innovation. So someone came through an innovation and created 
it.
    So I would say that the curriculum--and the concern should 
not necessarily be math and science enrollment. Rather the 
concern should be, what is the curriculum and how is it going 
to exploit where things are clearly going within industry and 
within the globalization of technology.
    The Chairman. Thank you.
    Dr. Nolte.
    Mr. Nolte. If I could respond to Mr. Sweeney I guess I 
might suggest that maybe we already have the basis of that 
curriculum. It is called our general education curriculum, 
where we really try to--and we do not do a good job of 
explaining at any level of education why these things are 
important. I do not think we do a good job explaining to our 
student why it is important for a general education curriculum. 
But it is designed to address some of the kinds of things that 
we have been talking about here today: communication skills, 
quantification skills, math, science skills, critical thinking 
skills, the ability to work in groups, the ability to think 
outside of the box.
    I guess I might suggest that that curriculum needs to be 
constantly updated to reflect the kinds of innovations that you 
are talking about. We as institutions of higher education, I 
believe, need to do a better job of explaining why it is 
important to our students, particularly why math and science 
are important to our students, because they do not really 
understand that and it is boring to them because that is what 
they had in their early ages.
    Thank you.
    The Chairman. A final word, Dr. Jackson.
    Mr. Jackson. If you are looking for a model that works, I 
invite you to come to Brooklyn, NY, and to see what we have 
created with a high school and a college. Every year we have 
200 seats available and 2,000 students apply for this high 
school admission, and it is a science and math high school. 
Most of the students who enroll in this high school are low 
income.
    But what we have done is to create a teaching workforce who 
have a passion for their discipline. Yes, the 11th and 12th 
grade we say is a waste, and Medgar Evers College provides the 
calculus, the upper science courses, the enriched courses that 
rarely would a high school be able to provide, except the very 
specialized ones. We have made a commitment to making a 
difference with the young people.
    So we start out with parents signing a contract, parental 
participation. We have gotten so good now, next year we are 
starting at the 6th grade, because it is almost too late when 
they get into high school. So at the end of this model, 
students graduating from our high school will have an associate 
degree and will be able to go on and get their baccalaureate 
degree. One of the nice things is we offer both the associate 
and the baccalaureate degrees, and it is seamless from the 
associate to the baccalaureate degree.
    It is a model that does work, it is working, and I invite 
you to come and to check us out.
    The Chairman. I appreciate that. I appreciate all the 
comments from the panelists today. A lot of good ideas there, 
and of course, we are looking forward to any expansion on the 
remarks that you want to make. I would just ask you to keep 
those ideas coming. My staff said that we had a lot of great 
idea people, and I really have to concur with that. This has 
been tremendous, some of the thoughts that are jarred loose.
    The games that kids play--there was a shortage of frogs 1 
year in the United States for dissection, so a computer 
programmer wrote a program for dissecting frogs. I bought one 
of those programs. I was well out of college by that time but I 
do not think I got to dissect a frog when I was in high school. 
Fascinating game. You could take this frog apart, put it in the 
right places in the tray. You could call up all kinds of 
information about each of the pieces that were there. When you 
finished you could put the thing back together and if you got 
it back together right, it stood up and danced. So there are 
some very exciting things that can happen out there.
    Trinity College has a great program with a limited research 
budget where they have a double peer review. They have a peer 
review by the true peers, and then they have the business peer 
review on grants, and the business peer review is to see if the 
research will actually result in anything that could be 
marketed. As a result there are things being spun off before 
they ever get started on the research. I think that is a model 
that some of the colleges in the United States could follow.
    The Chairman. Parade magazine puts out an article once a 
year that has the jobs in the United States and what people 
make at them. Since we usually do not vote on Friday I go back 
to Wyoming and visit classrooms, and when I am in 9th grade 
classrooms or earlier I like to ask them what they think they 
will make if they go to work right out of high school. Most of 
them think that they will make about $45,000 a year. So that 
magazine is very helpful. I distribute a lot of copies of that 
so they can find out what people in different occupations are 
making. Just a few of the ideas that have been jarred loose.
    Any final comments?
    Senator Kennedy. Just again I thank all of you so much for 
being here. I think we have to think about where our 
responsibilities lie. What is the Federal responsibility, what 
is the States responsibility? Are we really trying to be 
serious in dealing with some of these issues? We have many 
companies that do a terrific job. They do a terrific job in 
outlay, and I can imagine you are the people that go on to the 
board and say, look, we want to create or continue an 
innovative program, to improve the skills of their workers and 
to impropve the pipeline.
    I think ultimately we have to try to more closely examine--
these are terrific suggestions. We will be having our staffs 
back in touch with you, but hopefully you can think about what 
we ought to be doing to try to help us prioritize--we cannot do 
everything but we have to try to figure out ways that we can do 
more. Then I think we have to probably share our ideas. States 
have done some things, local communities have done some things. 
We need to share ideas of what works.
    Since Senator Enzi gave his favorite story, I have to share 
mine. I was up at the Museum of Science in Boston just a few 
years ago when we had strong support for this very small 
program called STAR schools. The education program is funded at 
$26 million. The Museum of Science had a small program using 
distance learning. They brought 450 inner-city kids into their 
big auditorium and they satellited in Robert Ballard who found 
the Lusitania and the Bismarck and the Titanic. He was in the 
Galapagos, and he was in his little machine that they call a 
Jason. He was asking the students, or the teacher was, for a 
volunteer that could steer the machine down there. You could 
have heard a pin drop in there for over an hour. Then he was 
talking not only about the oceran life, but he was talking 
about the density of the water, and pollution.
    These kids all left there enormously interested in what 
science and this other whole world were about. We have to 
figure out how we make that a common occurrence, how we 
interest and fascinate young inquisitive minds every day in 
school. We need to get teachers, we have got to get the 
schools, the school boards, all the rest of it engaged in 
learning science. But all of you can be very helpful to us if 
you help give some guidelines to do it.
    I thank the chair very much. This has been very 
interesting, very helpful. We are going to keep after you so we 
hope you will keep after us.
    The Chairman. We will be sending some questions in writing 
that we hope that you will answer based on what you have 
stimulated here today. Thank you so much for your testimony. 
Unfortunately, our time has run out, so thank you. We are 
adjourned.
    [Additional material follows:]

                          Additional Material

  Prepared Statement of Rev. Michael Sheeran, S.J., President, Regis 
                          University, Colorado

    Since I was unable to attend the Roundtable discussion on the 
relationship between higher education institutions and corporations to 
strengthen the American workforce, I am especially grateful to the 
Senate Health, Education, Labor, and Pensions Committee for affording 
this opportunity to share my views. I would like to make three points: 
First, only through careful collaboration between business and higher 
education can current developments in technology, science, and business 
practices be promptly translated into course content that truly 
prepares students for the workplace. Second, it is in the long-range 
interest of the corporate world and of the Nation that higher education 
include serious elements in the liberal arts because such background 
prepares employees who are creative and ethically attuned. Third, the 
Federal Government should seek to encourage distance education in ways 
that complement the natural good effect of the marketplace.
    Some background: I am president of Regis University, a Denver-based 
school of 16,000 offering bachelor's and master's degrees in business, 
health care, and the liberal arts, 14,000 of our students are adults. 
About 40 percent of our students are wholly online. Regis is one of 28 
American Jesuit colleges located in 19 States. The oldest, Georgetown 
University, was founded in 1789. Regis, founded in 1877, has the 
largest percentage of adult students of the 28.
    Six years ago, the Association of Jesuit Colleges and Universities 
(AJCU) formed JesuitNET, a distance education consortium facilitating 
online course work in our 28 schools. There are currently 350 courses 
offered by JesuitNET, including 50 online certificates and degree 
programs. The Federal program that made our efforts effective was the 
Learning Anytime Anywhere Partnership Program (LAAP).
    Under the JesuitNET LAAP grant, IBM collaborated with our Jesuit 
school consortium to develop a Competency Based Distance Education 
course model over a period of 3 years. This model is now used as a 
basis for new online degree programs at our University of San 
Francisco, Gonzaga University, and Loyola University New Orleans. 
Without the LAAP grant, all 28 schools would still be taking the baby 
steps in program development that their very constricted internal 
resources would have allowed.
    The LAAP model illustrates that Federal initiatives can be well run 
and can make a significant impact for the good of the economy. The LAAP 
model had (1) a specific focus, with a specific outcome; (2) the 
requirement of corporate partnership and financial support; (3) a 
sufficient level of government funding. A typical grant was at $1 
million for a 3-year period.
    Something very similar in impact could be achieved by offering 
grants to develop programs that attract and prepare students for 
technical areas needed by industry. May I suggest that the committee 
should not be surprised if it turns out that efforts to tailor programs 
in the sciences, business, accounting, etc. to the needs of corporate 
America often work best when independent colleges and universities 
collaborate with individual corporations. Independents tend to be 
smaller and less bureaucratic. That means they can flexibly adapt their 
curricula. In Regis U's collaboration over the past 30 years with Coors 
Brewery, Hewlett-Packard, IBM, Sun, and a number of other employers, it 
has been normal to change our curriculum in 6 months or less to be sure 
employees are learning the right computer languages and the right 
accounting software for their firms' systems. I recall one case where 
the Regis faculty tailored a computer science program to one firm's 
needs in less than 6 months. At one of our public competitors, the same 
review and approval process takes 3 to 5 years.
    American business will need more and more employees who love math, 
science, and technology. I believe that love typically germinates in 
middle and high school classrooms. But there is a major gap between 
available teaching technology in mathematics and the natural sciences 
and the preparation of teachers to use this technology. Perhaps grants 
for training future middle and high school math and science teachers 
and upgrading the skills of present teachers could be awarded to 
education departments/schools at universities around the country under 
Title II Teacher Quality in HEA.
    Let me move to my second point: Jesuit schools have always put 
priority on balancing practical competencies with a strong liberal arts 
education, often achieved through an extensive core curriculum. Until 
the late nineties, we at Regis found resistance from some of our 
corporate partners to this priority. After Enron and similar scandals, 
corporations have come to a new realization of the value to the firm of 
having employees who are not just technically competent but also 
steeped in a broad, thoughtful approach to life and therefore to 
business. They realize we are preparing people not just for entry-level 
jobs but for senior management and the boardroom. They understand that 
literature, history, philosophy, languages, and religious studies 
provide the breadth and ethical sensitivity that America and its 
corporations need for the long haul. It strikes me that Federal grant 
programs encouraging integration of these liberal arts areas with 
technical and scientific areas would be an effective witness that our 
national leaders realize the importance to the Nation of turning out 
citizens not just of competence but of virtue focused on the common 
good.
    Finally, a note on Distance Education. For about 25 years, Regis U. 
has experimented with various forms of distance education. We have our 
own testing unit to determine comparative outcomes between our younger 
and older students, our classroom and online students, etc. We have 
done some studies comparing outcomes of our adult students to adult 
students at other institutions. We have been quick about changing what 
seems not to work well. We do this both because we believe in quality 
and because constant fine tuning gives us a competitive advantage.
    Like classroom education, distance education can be extremely 
effective and it can also be a dismal experience. Similarly, the 
``hybrid'' courses that mix classroom and electronic learning have a 
significant potential, but can be done badly.
    I would suggest that one way for the Federal Government to 
encourage quality in educational innovation is to make sure the 
marketplace is protected from deceptive practices. For example, we need 
updated Federal protection of educational brands. Regis University has 
been fighting for years against an organization of similar name that 
sells diplomas through servers outside the country. A recent applicant 
wrote along the following lines, ``After looking at your online course 
offerings, I concluded your degree fit my interests perfectly. However, 
I am not going to sign up because I don't want to have to convince 
every new employer for the next 30 years that my diploma is from the 
real Regis University and not a degree mill of similar name.''
    I was pleased to see that a new Federal database of available 
accredited programs is now available. It will be a real service to 
potential students and their employers.
    I would also suggest that the marketplace itself is an important 
force for quality. Adult students and their employers with tuition 
reimbursement programs are wonderfully vigilant when it comes to making 
sure they get value for their money. For a university serious about 
distance education, every tuition-paying corporation is also a quality 
control agency. Federal tax laws that favor corporate investment in 
employee education are a far more reliable way to guarantee quality 
than any new Federal bureaucracy attempting to exercise direct 
regulation of already accredited programs.
    My thanks to the committee for inviting my testimony. More basic, 
thanks for being serious about guaranteeing the future of our Nation by 
promoting collaboration between business and higher education.

    [Whereupon, at 11:32 a.m., the committee was adjourned.]


</pre></body></html>
